<html>
<title> - H.R. 2100, H.R. 3425, H.R. 4438, H.R. 4491, AND H.R. 4524</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
       H.R. 2100, H.R. 3425, H.R. 4438, H.R. 4491, AND H.R. 4524

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                      Thursday, February 25, 2010

                               __________

                           Serial No. 111-44

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov
      


                  U.S. GOVERNMENT PRINTING OFFICE
55-096                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Frank Pallone, Jr., New Jersey       Jeff Flake, Arizona
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Madeleine Z. Bordallo, Guam          Louie Gohmert, Texas
Jim Costa, California                Rob Bishop, Utah
Dan Boren, Oklahoma                  Bill Shuster, Pennsylvania
Gregorio Sablan, Northern Marianas   Doug Lamborn, Colorado
Martin T. Heinrich, New Mexico       Adrian Smith, Nebraska
George Miller, California            Robert J. Wittman, Virginia
Edward J. Markey, Massachusetts      Paul C. Broun, Georgia
Peter A. DeFazio, Oregon             John Fleming, Louisiana
Maurice D. Hinchey, New York         Mike Coffman, Colorado
Donna M. Christensen, Virgin         Jason Chaffetz, Utah
    Islands                          Cynthia M. Lummis, Wyoming
Diana DeGette, Colorado              Tom McClintock, California
Ron Kind, Wisconsin                  Bill Cassidy, Louisiana
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico
Vacancy

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            Don Young, Alaska
Grace F. Napolitano, California      Elton Gallegly, California
Rush D. Holt, New Jersey             John J. Duncan, Jr., Tennessee
Madeleine Z. Bordallo, Guam          Jeff Flake, Arizona
Dan Boren, Oklahoma                  Henry E. Brown, Jr., South 
Martin T. Heinrich, New Mexico           Carolina
Peter A. DeFazio, Oregon             Louie Gohmert, Texas
Maurice D. Hinchey, New York         Bill Shuster, Pennsylvania
Donna M. Christensen, Virgin         Robert J. Wittman, Virginia
    Islands                          Paul C. Broun, Georgia
Diana DeGette, Colorado              Mike Coffman, Colorado
Ron Kind, Wisconsin                  Cynthia M. Lummis, Wyoming
Lois Capps, California               Tom McClintock, California
Jay Inslee, Washington               Doc Hastings, Washington, ex 
Stephanie Herseth Sandlin, South         officio
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio
Vacancy

      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, February 25, 2010......................     1

Statement of Members:
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Brett, Geneva, Vice President, Los Banos Buffalo Soldiers 9th 
      and 10th Cavalry Association, Los Banos, California........    49
        Prepared statement on H.R. 4491..........................    51
    Chandoha, Susan, Executive Director, Los Compadres de San 
      Antonio Missions National Historical Park, San Antonio, 
      Texas......................................................    46
        Prepared statement on H.R. 4438..........................    47
    Franks, Hon. Trent, a Representative in Congress from the 
      State of Arizona...........................................     8
        Prepared statement on H.R. 2100..........................     9
    Holmes Norton, Hon. Eleanor, a Representative in Congress 
      from the District of Columbia..............................     2
        Prepared statement on H.R. 3425..........................     3
    Jackson-Kelly, Loretta, Tribal Preservation Officer, and 
      Director, Department of Cultural Resources, Hualapai Tribe, 
      Peach Springs, Arizona.....................................    29
        Prepared statement on H.R. 2100..........................    31
    Otero, Linda, Tribal Council Member, and Director, Aha Makav 
      Cultural Society, Fort Mojave Indian Tribe, California, 
      Arizona, and Nevada, Needles, California...................    33
        Prepared statement on H.R. 2100..........................    34
    Rodriguez, Hon. Ciro D., a Representative in Congress from 
      the State of Texas.........................................     5
        Prepared statement on H.R. 4438..........................     7
    Shuler, Hon. Heath, a Representative in Congress from the 
      State of North Carolina....................................    10
        Prepared statement on H.R. 4524..........................    11
    Small, Brenda, President, Washington, DC Association of 
      Realtors, Washington, D.C..................................    43
        Prepared statement on H.R. 3425..........................    44
    Speier, Hon. Jackie, a Representative in Congress from the 
      State of California........................................    12
        Prepared statement on H.R. 4491..........................    13
    Whitesell, Stephen E., Associate Director, Park Planning, 
      Facilities, and Lands, National Park Service, U.S. 
      Department of the Interior.................................    15
        Prepared statement of the Bureau of Land Management on 
          H.R. 2100..............................................    16
        Prepared statement on H.R. 3425..........................    18
        Prepared statement on H.R. 4438..........................    19
        Prepared statement on H.R. 4491..........................    20
        Prepared statement on H.R. 4524..........................    21
    Wilson, Reid, Executive Director, Conservation Trust for 
      North Carolina, Raleigh, North Carolina....................    52
        Prepared statement on H.R. 4524..........................    54
    Woodhouse, Robert, Vice-Chairman, Arizona Game and Fish 
      Commission, Phoenix, Arizona...............................    36
        Prepared statement on H.R. 2100..........................    37

Additional materials supplied:
    National Rifle Association, Letter to The Honorable Trent 
      Franks submitted for the record............................    28
                                     

LEGISLATIVE HEARING ON H.R. 2100, TO PROVIDE FOR THE CONVEYANCE 
OF CERTAIN PUBLIC LAND IN MOHAVE VALLEY, MOHAVE COUNTY, 
ARIZONA, ADMINISTERED BY THE BUREAU OF LAND MANAGEMENT TO THE 
ARIZONA GAME AND FISH DEPARTMENT, FOR USE AS A PUBLIC SHOOTING 
RANGE; H.R. 3425, TO AUTHORIZE THE FAIR HOUSING COMMEMORATIVE 
FOUNDATION TO ESTABLISH A COMMEMORATIVE WORK ON FEDERAL LAND IN 
THE DISTRICT OF COLUMBIA TO COMMEMORATE THE ENACTMENT OF THE 
FAIR HOUSING ACT IN 1968; H.R. 4438, TO AUTHORIZE THE SECRETARY 
OF THE INTERIOR TO ENTER INTO AN AGREEMENT TO LEASE SPACE FROM 
A NONPROFIT GROUP OR OTHER GOVERNMENT ENTITY FOR A PARK 
HEADQUARTERS AT SAN ANTONIO MISSIONS NATIONAL HISTORICAL PARK, 
TO EXPAND THE BOUNDARY OF THE PARK, TO CONDUCT A STUDY OF 
POTENTIAL LAND ACQUISITIONS, AND FOR OTHER PURPOSES. (SAN 
ANTONIO MISSIONS NATIONAL HISTORICAL PARK LEASING AND BOUNDARY 
EXPANSION ACT OF 2010); H.R. 4491, TO AUTHORIZE THE SECRETARY 
OF THE INTERIOR TO CONDUCT A STUDY OF ALTERNATIVES FOR 
COMMEMORATING AND INTERPRETING THE ROLE OF THE BUFFALO SOLDIERS 
IN THE EARLY YEARS OF THE NATIONAL PARKS, AND FOR OTHER 
PURPOSES. (BUFFALO SOLDIERS IN THE NATIONAL PARKS STUDY ACT); 
AND H.R. 4524, TO AUTHORIZE FUNDING TO PROTECT AND CONSERVE 
LANDS CONTIGUOUS WITH THE BLUE RIDGE PARKWAY TO SERVE THE 
PUBLIC, AND FOR OTHER PURPOSES. (BLUE RIDGE PARKWAY PROTECTION 
ACT)
                              ----------                              


                                     

                      Thursday, February 25, 2010

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:00 a.m. in 
Room 1334, Longworth House Office Building, Hon. Raul M. 
Grijalva [Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Kildee, Inslee, Duncan, 
Brown, and Lummis.

    STATEMENT OF HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. I am going to call the Subcommittee on 
National Parks, Forests, and Public Lands to order for this 
hearing, and thank you very much. Today, we are going to 
receive testimony on five pieces of legislation, and in the 
interests of time, I leave it to the sponsors and the witnesses 
to describe them in detail, and to provide the information 
necessary.
    Our agenda includes a bill to expand the San Antonio 
Missions National Historical Park; to study the Buffalo 
Soldiers Trail for commemoration by the National Park System; 
as well as a bill to authorize funding to conserve lands 
adjacent to the Blue Ridge Parkway.
    I am interested today in hearing from both the Hualapai and 
the Fort Mojave tribes regarding their concerns on H.R. 2100, 
the Mohave County shooting range bill, and I want to thank them 
for coming out here on such short notice to provide their 
opinion, and their voice, for their respective tribes on the 
protection of their traditional lands, and thank you very much 
for making that trip.
    As always, we very much appreciate the time and efforts put 
forth by our witnesses. We thank them very much for joining us 
today. Our good friend, the Ranking Member, Mr. Bishop, will 
not be with us today, and we will shortly be joined by Mr. 
Brown, and when he arrives, if he has any opening statements, 
we will certainly extend the privilege to him.
    But let me begin now with our colleagues that are here with 
us today with their legislation. Thank you. Let me begin with 
Representative Eleanor Holmes Norton, with H.R. 3425. Welcome, 
and I look forward to your comments.
    [The prepared statement of Mr. Grijalva follows:]

Statement of The Honorable Raul M. Grijalva, Chairman, Subcommittee on 
National Parks, Forests and Public Lands, on H.R. 2100, H.R. 3425, H.R. 
                     4438, H.R. 4491, and H.R. 4524

    The Subcommittee will now come to order. Thank you.
    Today we will receive testimony on five bills and, in the interest 
of time, I leave it to the sponsors and witnesses to describe most of 
them in detail. Our agenda includes bills to expand the San Antonio 
Missions National Historical Park, to study the Buffalo Soldiers Trail 
for commemoration by the National Park System, as well a bill to 
authorize funding to conserve lands adjacent to the Blue Ridge Parkway.
    I am interested in hearing today from both the Hualapai and Fort 
Mojave tribes regarding their concerns on H.R. 2100, the Mohave County 
Shooting Range bill. And I want to thank them for coming out here on 
short notice to provide a voice for their respective tribes on the 
protection of their traditional lands.
    As always, we very much appreciate the time and efforts put forth 
by our witnesses and thank them very much for joining us today. With 
that said, I'd now like to turn to Ranking Member Bishop for any 
opening statement he may have.
                                 ______
                                 

STATEMENT OF HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS 
          FROM THE DISTRICT OF COLUMBIA, ON H.R. 3425

    Ms. Norton. Thank you very much, Mr. Chairman. It is always 
a pleasure to work with you, and I particularly commend your 
work on our national parks. This is a little different bill 
that you have before you. In fact, it is a very different bill.
    I have named it the Fair Housing Commemorative Act, but Mr. 
Chairman, it was not proposed by me, even though I am a former 
Chair of the Equal Employment Opportunity Commission, and have 
worked for equal rights all of my life.
    This bill is to commemorate the 1968 Fair Housing Act that 
was proposed by the National Association of Realtors, who are 
regulated, and whose practices are regulated by the Act. It may 
be the first time a sector that is regulated by the civil 
rights laws has proposed a commemorative work in honor of that 
law.
    I have worked long and hard with the real estate sector in 
the District of Columbia, because they helped to revive the 
city when it had a serious financial crisis because the city 
carried State functions that no other city carried.
    I got a $5,000 home buyer credit through, which to this day 
has helped to restore home ownership in the District of 
Columbia and kept residents here. So I have both a relationship 
with this industry, but I can tell you for all the good that 
they have done in the District, I could not have anticipated 
that they would come forward with this proposal.
    They built the first LEED-certified building in the 
District of Columbia. They took a piece of land that nobody 
thought anybody would build on near the Capitol, and made it 
into something really quite extraordinary.
    I appreciate this early hearing because it means that I 
believe this bill is just the kind of bill that can be passed 
this year. The Fair Housing Commemorative Foundation is already 
raising funds and working with the National Capital Memorial 
Advisory Committee to adhere to all of the requirements that 
you have to go through if you want to build in the District of 
Columbia.
    Mr. Chairman, there are three great civil rights acts; the 
1964 Civil Rights Act, and that is the one in which its 
enforcement that I was involved that created the Equal 
Employment Opportunity Commission; the 1965 Voting Rights Act, 
and the 1968 Fair Housing Act.
    It is no accident that the last to be enacted was the Fair 
Housing Act. It was enacted only after the assassination of 
Martin Luther King, Junior. The country had gone through many, 
and indeed, centuries, of unequal opportunity in housing.
    And even the Civil War amendments and the 1866 Fair Housing 
Act did not afford equal opportunity in housing to people of 
color. The fact is, Mr. Chairman, the Federal Government is 
strongly implicated in fair housing discrimination, and despite 
court suits that barred restricted conveyance, Federal agencies 
built in the requirements, frankly, of neighborhoods and of the 
real estate sector itself, that in effect made it difficult for 
people of color to own housing and to live where they could.
    The great breakthrough, of course, was the Civil Rights 
Movement push to enact the 1968 Fair Housing Act. Today, the 
Department of Housing and Urban Development, which administers 
the equal opportunity arm of housing of the Federal Government, 
is retooling for more vigorous enforcement.
    HUD has a job to do because the number of actions plummeted 
over the last several years. The real estate sector, through 
its foundation, in coming forward with this commemorative work 
proposal, is not declaring victory for fair housing in the 
United States.
    On the contrary, we believe that the memorial on land to be 
chosen in concert with the National Capital Planning 
Commission, will be inspirational, inspiring the American 
people, the real estate sector, and yes, the U.S. Government, 
and state and local governments, to embrace the ideas and the 
values invited in the Fair Housing Act.
    I am particularly proud of this bill, and particularly 
because it emanates not from the government, not from the 
people of color, and not even from me, Mr. Chairman, but from 
the real estate sector which itself is proposing a 
commemorative monument here in the Nation's Capital to 
recognize the importance of the 1968 Fair Housing Act.
    And I ask that the Subcommittee quickly pass it on so that 
we can go to the Floor and enact this commemorative works bill 
on fair housing this very year. Thank you very much, Mr. 
Chairman.
    [The prepared statement of Mrs. Holmes Norton follows:]

    Statement of The Honorable Eleanor Holmes Norton, a Delegate in 
          Congress from the District of Columbia, on H.R. 3425

    I very much appreciate your granting this early hearing, allowing 
the possibility that my bill this year will authorize the Fair Housing 
Commemorative Foundation to establish an unusual and non-controversial 
commemorative work honoring The Fair Housing Act of 1968 (FHA). The 
Fair Housing Commemorative Act would commemorate the FHA, the last of 
the three great civil rights laws of the 1960's, with an appropriate 
commemorative work in the nation's capital. The Fair Housing 
Commemorative Foundation is raising funds and is working with the 
National Capital Memorial Advisory Commission (NCMAC) to adhere to the 
requirements and process established by the Commemorative Works Act of 
1986. Notably, this bill may mark the first time that a sector of our 
economy has decided to honor the statute that regulates some of its 
practices. This precedent, forged by the real estate sector, is 
especially commendable.
    Housing availability and efforts for equal opportunity in the real 
estate markets are intertwined with our nation's history, particularly 
racial history. The federal government has both been a part of the 
problem and an integral part of the solution. Every branch of the 
federal government has played a key role in our national progress 
towards fair housing. It is particularly fitting that we commemorate 
the FHA with a monument in Washington, considering the history of 
discrimination that led to this landmark, civil rights speaks to the 
progress that has been made and the distance yet to go.
The Nation's Beginning: The Right to Private Property
    The Fifth Amendment to the U.S. Constitution establishes the right 
to own private property that the government cannot take without just 
compensation. Early immigrants sought a place where they could own and 
transfer real estate without arbitrary interference from the 
government. That right was not universal, however, because slavery 
denied basic rights to African Americans based on race, reduced them to 
the subhuman status of property, and denied them the right to own and 
use real property.
Post Civil War: Progress and Problems
    The Civil War amendments ending slavery were accompanied by laws 
that gave all citizens the same rights as white citizens to own and use 
real property. The Civil Rights Act of 1866 was our nation's first 
``fair housing'' law. However, that statute was ignored and severely 
limited by court decisions, culminating with the philosophy of 
``separate but equal'' in the Supreme Court's Plessey v. Ferguson 
decision. In addition, Congress and some states passed laws that 
restricted access to private property ownership and use by Latinos and 
Asian Americans.
    In the early 20th century, social scientists and leaders within 
real estate established guides for neighborhood desirability based on 
racial composition. Homogeneous communities for white residents were 
seen as the best investment for homeowners and others. Some early 
zoning laws sought to limit, residents by race, as did some practices 
of the real estate sector. Although in 1917 the Supreme Court, in 
Buchanan v. Warley, struck down these racial restrictions, they were 
incorporated into Federal Housing Administration rules, deeply 
implicating the federal government, and formed the basis for many 
private agreements to segregate and form racially restrictive 
covenants.
Post World War II Challenges Unmet
    Following the Second World War, returning GIs, through the GI bill, 
were offered a path to homeownership. However, African Americans and 
other minority group Americans were excluded from these GI bill 
benefits in many communities. The great migration of the middle class 
to the suburbs was largely a white phenomenon, creating segregated 
white suburbs and large isolated urban minority communities. There was 
little response by the government or the courts, although the Supreme 
Court formally ended judicial enforcement of racially restrictive 
covenants in the 1948 case, Shelley v. Kraemer.
The Civil Rights Movement Breakthrough
    The civil rights movement, particularly Dr. Martin Luther King, 
Jr.'s campaign in Chicago, brought renewed attention to housing 
discrimination. The federal government, first through executive order 
and then through the Civil Rights Act of 1964, banned discrimination in 
federally funded housing. By 1961, seventeen states had passed fair 
housing or open housing laws. However, it was not until April 1968, 
inspired tragically by the assassination of Dr. Martin Luther King, 
that Congress passed the FHA.
    Also in April 1968, the Supreme Court ruling in Jones v. Mayer held 
that the Civil Rights Act of 1866 prohibited discrimination in private 
real estate transactions. That law, however, lacked an effective 
government enforcement mechanism and covered only racial and religious 
discrimination. Gender discrimination in housing was prohibited in 
1974. In 1988, in response to growing awareness of the housing issues 
faced by the disabled, the adoption of the FHA Amendments established 
more effective government enforcement and extended protections to the 
disabled.
21st Century Aspirational Challenge
    Today, the federal government through its housing anti-
discrimination enforcement agency, the U.S. Department of Housing and 
Urban Development (HUD), is retooling for more vigorous enforcement. In 
2007 HUD issued discrimination charges in only 31 cases compared to 125 
in 1995. Regrettably, the decline in charges does not mean that housing 
discrimination has been reduced. Since 1980 there have been only 
moderate declines in African American patterns of residential 
segregation, while Latino residential segregation has remained 
unchanged over that same period. Socio-economic status does not 
necessarily signal progress according to a 2008 study by the National 
Commission on Fair Housing and Equal Opportunity, which found that 
``disparities between neighborhoods for Blacks and Hispanics with 
incomes above $60,000 are almost as large as the overall disparities, 
and they increased more substantially in the 1990s.''
    In seeking to memorialize the FHA, the real estate sector is not 
declaring victory. Like many memorials in the Nation's Capital, the 
Fair Housing Commemorative Foundation's work will be aspirational, 
inspiring the American people, their government, and the real estate 
sector to embrace the values embodied by the FHA. The nation should be 
particularly proud that this work is not proposed by the public or by 
our government, but instead by the nation's real estate sector whose 
practices are subject to oversight and enforcement.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, and I think you outlined 
the significance for many reasons, but the fact that the 
industry itself sees the Fair Housing legislation of 1968 as a 
monumental movement in a lot of areas, equality being one of 
them and opportunity. So thank you for that.
    Before I turn to my good friend, Mr. Rodriguez, if I could 
ask the Ranking Member, Mr. Brown, if he has any opening 
statements or any comments. Sir?
    Mr. Brown. Thank you, Mr. Chairman. I just want to welcome 
my colleagues here and appreciate you all showing up today, and 
appearing before this Committee, and look forward to hearing 
from you all. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you, sir. H.R. 4438, sponsored by 
Representative Ciro D. Rodriguez of Texas. Sir, thank you very 
much. It is an excellent piece of legislation, and it 
acknowledges a big part of the history of this Nation, and I 
look forward to your comments.

   STATEMENT OF HON. CIRO D. RODRIGUEZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Rodriguez. Chairman Grijalva, thank you very much, and 
Ranking Member Bishop, and Representative Brown, and members of 
the Subcommittee, thank you for allowing me to speak and 
testify this morning on H.R. 4438, the San Antonio Missions 
National Historical Park Leasing and Boundary Expansion Act of 
2010.
    I represent the Twenty-Third Congressional District of 
Texas, ranging from San Antonio and El Paso, which is about 650 
miles, 800 miles to the border, one of the largest districts in 
the Nation.
    I am also pleased to have seven of the thirteen National 
Parks in Texas. I probably have more national parks than any 
Member of Congress, including an urban park that is rich in 
culture, and historical significance in the heart of San 
Antonio, and the San Antonio Missions National Historical Park.
    The San Antonio Missions form the largest concentration of 
Catholic missions in North America, and serves as some of the 
most well preserved representations of the Spanish colonial 
history influence in culture in the Southwest. It is on this 
foundation that the City of San Antonio was established, and 
today the Missions serve as an important reminder and 
connection to our city's rich past.
    The Park includes four missions which were built on the San 
Antonio River in the 1700s. These were all social and cultural 
centers at the time, and of the present also, and were able to 
thrive despite facing threats from Native Americans and other 
forms of threats during the period.
    As the need for the missions diminished, the missions were 
transferred to the secular clergy in the early 1800s, and they 
remain active parishes to this day. Although the park was 
officially created by the National Park Service in 1978, the 
community had long been working to preserve the mission 
buildings and surrounding area.
    Work began in the 1930s to restore the missions and related 
structures and, because of this foresight, the Espada Aqueduct 
is the only functioning aqueduct from the Spanish colonial 
period in the United States. It is a beautiful aqueduct. Parts 
of it remain today, and it is designated as a National Hispanic 
Landmark in this country.
    In fact, the importance of the missions has been 
recognized, and it is on the United States' tentative list for 
future nomination to the World Heritage List. This legislation, 
which is co-sponsored by all three of my colleagues from San 
Antonio--Congressman Lamar Smith, Congressman Charlie Gonzales, 
and Congressman Henry Cuellar--and I will continue this deep 
tradition of preservation for the Park, while also ensuring its 
future growth.
    The need to prepare for the growth is clear. Just last 
year, in 2009, the Park had a record-breaking year for 
visitation with over 1.7 million people visiting the Park.
    H.R. 4438 would authorize a boundary study that would 
identify possible lands for inclusion in the Park within their 
counties, which are Bexar and Wilson Counties, and surrounding 
counties.
    The bill would also authorize the purchase of previously 
identified lands. Last, the legislation would allow for the 
leasing of a new headquarters and research space from a non-
profit or other governmental entity, creating the space for 
education and research of this region. It will be vital to 
carrying on the legacy of the Spanish missions.
    However, it is not just the work of the National Park 
Service, and the active and invaluable friends or groups, but 
Los Compadres, a local not-for-profit group, that has made this 
goal of preservation and education possible.
    The City of San Antonio and Bexar County have also been 
working diligently to restore the San Antonio River to its 
natural environment. This means that future generations will be 
able to walk along the river and see the city through the eyes 
of its past inhabitants as they look upon these historic 
structures and learn about the people that settled the region.
    The San Antonio Missions National Historical Park is unique 
for so many reasons, but its location as an urban park and Its 
deep connections to the city are undoubtedly its greatest 
strengths.
    And I would remind you that San Antonio is the seventh 
largest city in the Nation, and you see this beautiful park 
within it, and as you see here today, the support from the 
community--and I will ask them to stand up behind me if they 
can, please, everybody.
    We have a good amount of support from all sectors of the 
community, and I want to thank them for being here today, and I 
know that they are willing to provide testimony.
    And I want to thank you for allowing me this morning to be 
here before you, and just share one little thing. There are a 
multitude of things, but I want to also share with you that San 
Antonio is also the home of one of the unique dams, the oldest 
dam in North America, that still exists, and still operates, 
and has never broken.
    And so with that, I have a little brochure of some of the 
missions that were built along the river. A lot of you are 
familiar with the Alamo downtown. These are very similar, but 
they are still parishes.
    The Alamo was on the right side of the river. The Cathedral 
of San Antonio, one of the oldest cathedrals in the Americas, 
on this side of the river, and they took care of the people 
that went to church on either side.
    And as you go down the river toward the east to the Gulf of 
Mexico, the missions, the first one that you run into is called 
Concepcion on the right side, and then you run into San Jose 
that would take care of the people on this other side, and then 
you run into San Juan, and Espada.
    Each one of those missions has a beautiful history. During 
the battle of the Alamo, there was battles that were fought 
also in Espada and some of the others where Bowie and others 
were successful.
    So it is a beautiful history, and so thank you very much 
for allowing me this opportunity to testify, and if you have 
any comments or questions, I look forward to them.
    [The prepared statement of Mr. Rodriguez follows:]

   Statement of The Honorable Ciro D. Rodriguez, a Representative in 
             Congress from the State of Texas, on H.R. 4438

    Chairman Grijalva, Ranking Member Bishop and Members of the 
Subcommittee, thank you for inviting me here today to testify on behalf 
of H.R. 4438, the San Antonio Missions National Historical Park Leasing 
and Boundary Expansion Act of 2010. I represent the 23rd District of 
Texas which extends from San Antonio west to El Paso.
    In my district I am very fortunate to have 7 of the 13 National 
Park units in Texas, including an urban park of rich cultural and 
historical significance in the heart of San Antonio, the San Antonio 
Missions National Historic Park.
    The San Antonio Missions form the largest concentration of Catholic 
missions in North America and serve as some of the most well-preserved 
representations of Spanish Colony history, influence and culture in the 
Southwest. It is on this foundation that the City of San Antonio was 
established and today the Missions serve as important reminder and 
connection to our City's rich past.
    The Park includes four missions which were built on the San Antonio 
River in the early 1700s. These were important social and cultural 
centers of the time and were able to thrive despite facing threats from 
local Indian tribes. As the need for the Missions diminished, the 
Missions were transferred to the secular clergy in the early 1800s and 
they remain active parishes even today.
    Although the park was officially created by the National Park 
Service in 1978, the community had long been working to preserve the 
Mission buildings and surrounding area. Work began in the 1930s to 
restore the Missions and related structures. Because of this foresight, 
the Espada aqueduct, the only functioning aqueduct from the Spanish 
colonial period in the United States, remains today and is designated a 
National Historic Landmark. In fact, the importance of the Missions has 
been so recognized that it is on the United States' tentative list for 
future nomination to the World Heritage List.
    This legislation, which is co-sponsored by all three of my 
colleagues from San Antonio--Congressmen Gonzalez, Cuellar and Smith--
will continue this deep tradition of preservation for the park while 
also ensuring its future growth. The need to prepare for this growth is 
clear; just last year in 2009, the park had a record-breaking year for 
visitation with over 1.7 million people visiting the park, a 35% 
increase over 2008 levels.
    H.R. 4438 would authorize a boundary study that would identify 
possible lands for inclusion in the park within Bexar and Wilson 
Counties. The bill would also authorize the purchase of previously-
identified lands. Lastly, the legislation would allow for the leasing 
of a new headquarters and research space from a nonprofit or other 
government entity. Creating this space for education and research of 
this region will be vital to carrying on the legacy of the Spanish 
Missions.
    However it is not just the work of the National Park Service and 
the active and invaluable Friends Group, Los Compadres, which has made 
this goal of preservation and education possible. The City of San 
Antonio and Bexar County have also been working diligently to restore 
the San Antonio River to its natural environment. This means that 
future generations will be able to walk along the river and see the 
city through the eyes of its past inhabitants as they look upon these 
historic structures and learn about the people that settled in the 
region.
    The San Antonio Missions National Historic Park is unique for so 
many reasons, but its location as an urban park and its deep connection 
to the city are undoubtedly its greatest strengths. And as you will see 
here today, the support from the community for this park and this 
legislation is overwhelming.
    Thank you again for inviting me here today to testify on the 
legislation for the San Antonio Missions National Historic Park. I am 
proud to be the sponsor of H.R. 4438 because I believe this legislation 
is vital to preserving the important history of San Antonio and 
creating a way for the future growth of the park. Thank you.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. Let me now ask my friend 
from the great State of Arizona for his comments regarding H.R. 
2100. Mr. Franks, the floor is yours.

 STATEMENT OF HON. TRENT FRANKS, A REPRESENTATIVE IN CONGRESS 
            FROM THE STATE OF ARIZONA, ON H.R. 2100

    Mr. Franks. Chairman Grijalva, and Ranking Member Brown, I 
wanted to express gratitude for the opportunity to appear here 
before your Committee, and to support H.R. 2100.
    I am especially grateful to be here in front of a fellow 
Arizonan and, Mr. Chairman, with your permission, at the 
culmination of my testimony here, I have a responsibility in 
another committee, and so I would ask to be excused after my 
testimony. No way, huh?
    Mr. Grijalva. No, you have to stay here. If we do, then no.
    [Laughter.]
    Mr. Franks. Boy, I will tell you. I don't know about these 
Arizonans.
    Mr. Grijalva. That would be your privilege, sir.
    Mr. Franks. Mr. Chairman, I introduced this legislation on 
behalf of constituents in Mohave Valley, Arizona. The bill 
provides for the conveyance of 315 acres of land. It is public 
land to the Arizona Game and Fish Department for use as a 
public shooting range.
    The Mohave County shooting range proposal has been under 
consideration and evaluation for more than a decade. Actually, 
for 11 years. Arizona's Mohave County has experienced rapid 
growth over the last few years, and the traditional locations 
for target shooting are now too close to populated areas for 
safety.
    There is a need to designate a centralized multi-purpose 
public shooting location in Mohave County to promote safe 
hunting and shooting practices, and to provide the public with 
safe shooting areas, to support the hunter education program, 
and to encourage hunters to become more proficient with their 
equipment.
    But, Mr. Chairman, there is also a major need for a central 
facility for training purposes in the use of firearms, such as 
local law enforcement and security personnel, to achieve and 
maintain firearms qualifications.
    Now, some of these officers are even forced to travel long 
distances in order to practice and improve the marksmanship 
skills that are so central as a component of their job 
requirements.
    The shooting range project would consist of seven different 
types of ranges, including a trap and skeet range, sports play 
range, police rifle range, and pistol maze and range, a public 
range, and an archery range.
    And while, Mr. Chairman, I would defer to the Bureau of 
Land Management and the Arizona Game and Fish Department to 
address specific concerns raised by the Fort Mojave and 
Hualapai Native American Tribes, I will say that over the last 
11 years of this process that I have diligently tried and 
continue to take the tribes' concerns very seriously.
    The Mohave shooting range proposal contains a rigorous set 
of standards and criteria that would apply to any facility that 
could be built, and would address and significantly reduce the 
visual and sound issues raised by the tribes.
    So, Mr. Chairman, thank you again for this opportunity to 
testify before you on this bill, H.R. 2100. I trust and hope 
that after hearing further testimony from the relevant parties 
regarding the 11-year-long negotiation process for this 
proposal that you will recognize and support the need for this 
range.
    And I would greatly appreciate your support and the 
Committee's positive support for this much-needed and long-
overdue legislation, and I thank you again for the opportunity 
to be here.
    [The prepared statement of Trent Franks follows:]

 Statement of The Honorable Trent Franks, a Representative in Congress 
                from the State of Arizona, on H.R. 2100

    Thank you, Mr. Chairman, for the opportunity to testify in support 
of my bill, H.R. 2100.
    I introduced this legislation on behalf of constituents of Mohave 
Valley, Arizona. My bill provides for the conveyance of 315 acres of 
public land to the Arizona Game and Fish Department for use as a public 
shooting range. The Mohave County Shooting Range proposal has been 
under consideration and evaluation for more than a decade--11 years in 
fact.
    Arizona's Mohave County has experienced rapid growth over the last 
few years and the traditional locations for target shooting are now too 
close to populated areas for safety. There is a need to designate a 
centralized multipurpose public shooting location in Mohave County to 
promote safe hunting and shooting practices, provide the public with 
safe shooting areas, support the Hunter Education Program and encourage 
hunters to become more proficient with their equipment.
    There is also a major need for a central facility for persons 
training in the use of firearms such as local law enforcement and 
security personnel to achieve and maintain firearm qualifications. Some 
of these officers are even forced to travel long distances in order to 
practice and improve the marksmanship skills that are a central 
component of their job requirements.
    The shooting range project would consist of seven different types 
of ranges, including a trap and skeet range, sports clay range, a 
police rifle range, pistol bays and range, a public range, and a 
archery range.
    While I will defer to the BLM and the Arizona Game and Fish 
Department in addressing specific concerns raised by the Fort Mohave 
and Hualapai Native American tribes, I will say that over the last 11 
years of this process, I have taken the tribes' concerns very 
seriously. The Mohave Shooting range proposal contains a rigorous set 
of standards and criteria that would apply to any facility that would 
be built, and would address and significantly reduce the visual and 
sound issues raised by the Tribes.
    Mr. Chairman, thank you again for this opportunity to testify 
before you on my bill, H.R. 2100. I trust that after hearing further 
testimony from the relevant parties regarding the 11 year long 
negotiation process for this proposal, you will recognize the need for 
this range. I would greatly appreciate the Committee's positive support 
for this much-needed and long overdue legislation.
    Thank you.
                                 ______
                                 
    Mr. Grijalva. Thank you, Mr. Franks, for your testimony, 
and I appreciate the time that you have taken, and I look 
forward to continued discussions on the item. Let me now ask 
Mr. Shuler on H.R. 4524, Congressman Shuler's legislation that 
he is sponsoring, and we look forward to your comments, sir.

 STATEMENT OF HON. HEATH SHULER, A REPRESENTATIVE IN CONGRESS 
         FROM THE STATE OF NORTH CAROLINA, ON H.R. 4524

    Mr. Shuler. Thank you, Mr. Chairman. I first want to thank 
the Chairman and tell you how much I miss this Committee--
having served on it for the 110th Congress--and to thank 
Ranking Member Bishop and Ranking Pro Temp Mr. Brown, from the 
great State of Georgia, and members of the Subcommittee for 
holding this hearing to discuss, among other issues, H.R. 4524, 
the Blue Ridge Parkway Protection Act.
    As you all have tremendous experience in developing 
legislation pertaining to Federal lands, I am grateful for the 
opportunity to hear your feedback on this legislation, and hope 
that your suggestions can be incorporated into the bill at a 
later date.
    The Blue Ridge Parkway spans the western portion of North 
Carolina and Virginia, running a total of 469 miles, through 
some of the most beautiful terrain in the southeastern United 
States.
    As the most visited unit of the National Park Service, the 
Parkway provides recreational benefits for countless American 
families who enjoy the scenic drive, and the abundance of 
opportunities for outdoor activities along the way. The Parkway 
is also a valuable economic asset to the communities alongside 
it. The Parkway visitors inject roughly $2.3 billion each year 
into dozens of cities and towns that rely on the thriving 
tourism economy.
    In 2008, the National Park Service commissioned a detailed 
survey of Blue Ridge Parkway visitors to better understand what 
element of the Parkway are of the greatest importance to them. 
In that survey, 97 percent of all visitors said that the scenic 
view and the scenic drives were the most important attributes 
of the Parkway.
    Clearly, natural beauty that can be attained from the 
roadside is what makes this the most popular unit of the entire 
Park Service. It is for that reason that my colleagues and I 
have introduced H.R. 4524, a bill that will protect the most 
important lands alongside, and ensure that these scenic views 
are not interrupted by deforestation and development.
    H.R. 4524 would authorize the Park Service to acquire and 
incorporate into the boundaries of the Blue Ridge Parkway up to 
50 thousand acres that are contiguous to current Parkway 
property.
    These properties must be identified by the superintendent 
of the Parkway as top priorities for viewshed protection, and 
may only be acquired from willing sellers. Eminent domain 
cannot be used to carry out any portion of this bill.
    In working with the National Park Service during the 
drafting of this legislation, it is clear that there are 
concerns about specific portions of this bill, all of which we 
believe can be properly addressed with the help and the 
expertise of this Subcommittee.
    I am grateful that the Park Service has shown such 
willingness to work with me and the other sponsors of this 
bill, Representatives David Price, Rick Boucher, and Tom 
Perriello, to enhance portions of this bill pertaining to the 
acquisition authority and how best to utilize the great 
resources and abilities of qualified land conservation groups.
    It is an honor for me to represent this bill and have Reid 
Wilson, Executive Director of the Conservation Trust for North 
Carolina, testify on behalf of this legislation. I want to 
thank you again for your time and attention to the Blue Ridge 
Parkway Protection Act.
    I look forward to hearing your suggestions on this bill, 
which will preserve the viewsheds of the country's most visited 
Park Service unit, and protect many local economies that depend 
upon it. I would also like to ask the Chairman for permission 
to be excused. Other duties do call, sir.
    [The prepared statement of Mr. Shuler follows:]

 Statement of The Honorable Heath Shuler, a Representative in Congress 
             from the State of North Carolina, on H.R. 4524

    I first want to thank Chairman Grijalva, Ranking Member Bishop, and 
members of the Subcommittee for convening this hearing to discuss, 
among other issues, H.R. 4524, The Blue Ridge Parkway Protection Act. 
As you all have tremendous experience in developing legislation 
pertaining to our federal lands, I am grateful for the opportunity to 
hear your feedback on this legislation and hope that your suggestions 
can be incorporated into this bill at a later date.
    The Blue Ridge Parkway spans the western portions of North Carolina 
and Virginia, running a total of 469 miles through some of the most 
beautiful terrain in the southeastern United States. As the most 
visited unit of the National Park Service, the Parkway provides 
recreational benefits for countless American families who enjoy the 
scenic drive and the abundance of opportunities for outdoor activities 
along the way.
    The Parkway is also a valuable economic asset to the communities 
alongside of it, with Parkway visitors injecting roughly $2.3 billion 
each year into dozens of cities and towns that rely on a thriving 
tourism economy.
    In 2008, the National Park Service commissioned a detailed survey 
of Blue Ridge Parkway visitors to better understand what elements of 
the Parkway are of the greatest importance to them. In that survey, 97% 
of all visitors said that the scenic views and scenic drive were the 
most important attributes of the Parkway. Clearly, the natural beauty 
that can be observed from the roadway is what makes this the most 
popular unit of the entire Park Service. It is for this very reason 
that my colleagues and I have introduced H.R. 4524, a bill that will 
protect the most important lands along the Parkway and ensure that 
these scenic views are not disrupted by deforestation and development.
    H.R. 4524 would authorize the Park Service to acquire and 
incorporate into the boundary of the Blue Ridge Parkway up to 50,000 
acres that are contiguous to current Parkway property. These properties 
must be identified by the Superintendent of the Parkway as top 
priorities for viewshed protection, and may only be acquired from 
willing sellers--eminent domain cannot be used to carry out any portion 
of this bill.
    In working with the National Park Service during the drafting of 
this legislation, it is clear that there are concerns about specific 
portions of the bill, all of which we believe can be properly addressed 
with the help and expertise of this subcommittee. I am grateful that 
the Park Service has shown such willingness to work with me and the 
other sponsors of this bill--Representatives David Price, Rick Boucher, 
and Tom Perriello--to enhance portions of this bill pertaining to 
acquisition authority and how best to utilize the great resources and 
abilities of qualified land conservation groups. I am also grateful to 
have Reid Wilson, executive director of the Trust for North Carolina to 
testify on behalf of this legislation.
    I thank you again for your time and attention to the Blue Ridge 
Parkway Protection Act. I look forward to hearing your suggestions on 
this bill, which will preserve the viewsheds of the Country's most 
visited Park Service unit and protect the many local economies that 
depend on it.
                                 ______
                                 
    Mr. Grijalva. Please, and thank you very much for your 
testimony. Let me now ask Congresswoman Speier for her comments 
regarding her legislation, H.R. 4491, and before I turn it over 
to her, my part of the world has historic linkage to the 
Buffalo Soldiers, Fort Huachuca, and other parts of Southern 
Arizona in the late 1800s.
    And so I want to tell you how historically significant it 
is, but I think it is also an important acknowledgement of 
something important in our military history that has not been 
included or highlighted. So let me congratulate you on your 
legislation, and turn it over to you for your comments.

 STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE IN CONGRESS 
           FROM THE STATE OF CALIFORNIA, ON H.R. 4491

    Ms. Speier. Well, thank you, Mr. Chairman. You have 
basically given my comments now. Mr. Chairman, and 
Representative Brown, and members of the Committee, I thank you 
for the opportunity to testify this morning on H.R. 4491, the 
Buffalo Soldiers in the National Park Study Act.
    Specifically, this bill authorizes the Secretary of the 
Interior to study the role that Buffalo Soldiers played in the 
development of our national park system. Once the study is 
complete, I trust the Buffalo Soldiers Trail will warrant 
designation as a National Historic Trail.
    I am glad that Mr. Stephen Whitesell, with the National 
Park Service, will be here today to testify and answer any 
questions. I also appreciate the Committee inviting Mrs. Geneva 
Brett to testify, who represents the Los Banos Buffalo Soldiers 
Ninth and Tenth Cavalry Association. Geneva and her colleagues 
have put remarkable efforts into this cause, and I commend them 
for their patriotic service.
    As many of us learned in school, African-Americans could 
not enlist in the Army until after the Civil War. By 1869, 
Congress formed four all black regiments, the Ninth and Tenth 
Cavalry, and the Twenty-Fourth and Twenty-Fifth Infantry.
    These soldiers came to be known as the Buffalo Soldiers. 
What many of us do not know is just how unique this story is to 
my home State of California. The Buffalo Soldiers were 
garrisoned at the Presidio in San Francisco in the early 1900s.
    Many of them had fought in the Philippines and the Spanish-
American War, where they gained legendary status as fearless 
fighters alongside Teddy Roosevelt's Rough Riders. However, 
they faced racism and discrimination as they performed their 
duties on the western frontier.
    They patrolled Yosemite, Sequoia, and Kings Canyon Parks 
before the Park System was established. To get there, they left 
the Presidio and headed south along El Camino Real through San 
Mateo County in my district.
    These soldiers were truly the first guardians of our 
national park system, blazing the trails, building the roads, 
and protecting the land for visitors. They helped make the 
vision for our National Park System a reality.
    Native Americans nicknamed the troops Buffalo Soldiers 
after their dark skin and curly hair. Since the buffalo was 
revered among Native Americans for its brave fighting spirit, 
the troops accepted the title as a badge of honor.
    And I have lived my entire life within walking distance of 
the Buffalo Soldiers Trail, and never knew this chapter in our 
history. Upon learning of the Buffalo Soldiers, the chance to 
recognize those who gave everything in the face of adversity 
was simply too important to pass up.
    This bill is one of many steps toward the rightful 
recognition of these soldiers. At the same time, it will 
enhance our national parks. We should not lose sight of this 
story's relevance to our long and ongoing struggle with racism.
    Some of you may have seen the recent documentary by Ken 
Burns, The National Parks: America's Best Idea. In this film, 
Mr. Burns highlights the work of a park ranger, Shelton 
Johnson, who is proudly sharing the Buffalo Soldiers' story 
with visitors at Yosemite today.
    He describes the overt racism the Buffalo Soldiers fought 
to overcome as they did their jobs, and he also conveys the 
importance of their mission to protect our treasured wild 
places.
    Quoting Mr. Johnson, he said: ``It is a window into the 
ancient earth, the earth that once was, the earth that will 
always be. Park is not a strong enough term to describe what is 
beyond this gate.''
    I now know the Buffalo Soldiers must have felt the same, 
and if we commemorate their service, I know that many 
Americans' experience in our national parks will be better for 
it.
    Therefore, as we approach the centennial of the National 
Park Service in 2016, I believe that it is fitting that we seek 
to raise awareness of the Buffalo Soldiers' great contributions 
to the United States.
    I want to thank you, Mr. Chairman, for co-sponsoring this 
measure and for the 52 other Members of our House, and for 
allowing me to testify today.
    [The prepared statement of Ms. Speier follows:]

Statement of The Honorable Jackie Speier, a Representative in Congress 
               from the State of California, on H.R. 4491

    Chairman Rahall, Ranking Member Hastings, Members of the Committee: 
thank you for inviting me to this hearing on H.R. 4491, the Buffalo 
Soldiers in the National Parks Study Act. It gives me great pleasure to 
testify here today about an important bill for our National Parks that 
will also help bring an untold American story to light.
    Specifically, my bill authorizes the Secretary of the Interior to 
study the role the Buffalo Soldiers played in the development of the 
National Park System.
    My goal in seeking this study is to determine how we can make the 
Buffalo Soldiers Trail a National Historic Trail. I am glad Mr. Stephen 
Whitesell with the National Park Service will testify and take your 
questions in this area.
    I am also grateful you have invited Ms. Geneva Brett here today, 
who represents the Los Banos Buffalo Soldiers 9th and 10th Cavalry 
Association. Geneva and her colleagues have put remarkable effort into 
this cause and I commend them for their patriotic service.
    As many of us learned in school, African Americans could not enlist 
in the Army until after the Civil War. By 1869, Congress formed four 
all-black regiments: the 9th and 10th Cavalry and the 24th and 25th 
Infantry. These soldiers came to be known as the Buffalo Soldiers. What 
many of us do not know is just how unique this story is to my home 
state of California.
    The Buffalo Soldiers were garrisoned at the Presidio in San 
Francisco in the early 1900s. Many of them fought in the Philippines 
and the Spanish American War, where they gained legendary status as 
fearless fighters alongside Theodore Roosevelt's Rough Riders.
    However, they faced racism and discrimination as they performed 
their new duty on the Western frontier. They patrolled Yosemite, 
Sequoia and Kings Canyon parks before the Park System was established. 
To get there, they left the Presidio and headed south along El Camino 
Real through San Mateo County, in my district.
    These soldiers were truly the first guardians of our National 
Parks, blazing the trails, building the roads and protecting the lands 
for visitors--they helped make the vision for our National Parks a 
reality.
    Native Americans nicknamed the troops ``Buffalo Soldiers'' after 
their dark skin and curly hair. Since the buffalo was revered among 
Native Americans for its brave fighting spirit, the troops accepted the 
title as a badge of honor.
    I have lived my entire life within walking distance of the Buffalo 
Soldiers Trail and never knew this chapter in our history. Upon 
learning of the Buffalo Soldiers, the chance to recognize those who 
gave everything in the face of adversity was simply too important to 
pass up.
    The bill I have introduced is only one step toward the rightful 
recognition of these soldiers. At the same time it will enhance our 
National Parks, we should not lose sight of this story's relevance to 
our long and ongoing struggle with racism.
    Some of you may have seen the recent documentary by Ken Burns, The 
National Parks: America's Best Idea. In his film, Mr. Burns highlights 
the work of Park Ranger Shelton Johnson, who is proudly sharing the 
Buffalo Soldiers' story with visitors to Yosemite today. He describes 
the overt racism the Buffalo Soldiers fought to overcome as they did 
their duty, and he also conveys the importance of their mission to 
protect our treasured wild places. Quotes Mr. Johnson of Yosemite:
        It is a window into the ancient earth, the earth that once was, 
        the earth that will always be. Park is not a strong enough term 
        to describe what is beyond this gate.
    I now know the Buffalo Soldiers must have felt the same, and if we 
commemorate their service, I know many Americans' experience in our 
National Parks will be better for it.
    Therefore, as we approach the Centennial of the National Park 
Service in 2016, and during this Black History Month, it is fitting 
that we seek to raise awareness of the Buffalo Soldiers' great 
contribution to the United States of America.
    Thank you for allowing me to testify today on my legislation. I 
hope the Committee will support H.R. 4491, and I look forward to your 
questions.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. I don't have any 
questions for the witness. Let me now ask Ranking Member Brown 
and Congressman Duncan if they have any comments or questions. 
Sir.
    Mr. Brown. Thank you, Mr. Chairman. I have no questions for 
Ms. Speier, and just appreciate her being her. Thank you.
    Mr. Grijalva. Thank you very much for appearing here today. 
Next we have Mr. Stephen Whitesell, Associate Director, Park 
Planning, Facilities, and Lands, National Park Service; and 
also on one of the pieces of legislation, and maybe more, and 
accompanied by Ed Roberson, Assistant Director, Renewable 
Resources and Planning, Bureau of Land Management.
    Mr. Whitesell, welcome, and I look forward to your comments 
regarding the bills that are before us today. Sir.

  STATEMENT OF STEPHEN P. WHITESELL, ASSOCIATE DIRECTOR, PARK 
 PLANNING, FACILITIES, AND LANDS, NATIONAL PARK SERVICE; U.S. 
    DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY ED ROBERSON, 
ASSISTANT DIRECTOR, RENEWABLE RESOURCES AND PLANNING, BUREAU OF 
                        LAND MANAGEMENT

    Mr. Whitesell. Mr. Chairman, thank you for the opportunity 
to appear before this Subcommittee to present the Department of 
the Interior's views on five of the bills on today's agenda; 
four related to the National Park Service, and one related to 
the Bureau of Land Management.
    As you noted, I am joined today by Ed Roberson, who is the 
Assistant Director for Renewable Resources and Planning for the 
BLM. He is accompanying me and would be happy to answer any 
questions regarding H.R. 2100, which is the single BLM bill on 
today's agenda.
    I would like to also submit our statements on each of these 
subjects for the record, and today I will summarize the 
Department's position on these bills. H.R. 2100 would provide 
for the conveyance at no cost of approximately 315 acres of BLM 
managed public lands in Mohave County, Arizona, to the Arizona 
Game and Fish Department, to be used as a public shooting 
range.
    On February 10 of this year, the BLM approved the decision 
to authorize the disposal of the same BLM lands to the Arizona 
Game and Fish Department through the Recreation and Public 
Purposes Act.
    The Department supports the goals of the legislation, but 
notes that the BLM is nearing completion of the administrative 
process to accomplish the transfer, which obviates the need for 
a legislative mandated transfer.
    H.R. 3425 would authorize the Fair Housing Commemorative 
Foundation to establish a commemorative work on Federal land in 
the District of Columbia to commemorate the enactment of the 
Fair Housing Act. The Department appreciates the importance of 
this Act, a landmark law in a continuum of notable strides to 
further the cause of civil rights for every American.
    However, the Department believes that the establishment of 
a memorial by an Act of Congress through the Commemorative 
Works Act is not the most appropriate way to celebrate this 
important law. We believe that there are alternative means to 
acknowledge this achievement, and therefore, we do not support 
the bill.
    H.R. 4438 would provide authority at the San Antonio 
Missions National Historical Park for three purposes. One, to 
conduct a study of lands in Bexar and Wilson Counties to 
identify lands that would be appropriate to include within the 
boundaries of the park.
    Two, to enter into a lease with a non-profit organization 
or a governmental entity for office space outside the 
boundaries of the park for headquarters, operational support 
building, and a center for research and education.
    And, three, for a boundary expansion of approximately 151 
acres. The Department supports H.R. 4438 with amendments that 
would address some ambiguity in the bill's provisions on 
leasing authority.
    H.R. 4491 would authorize a study of alternatives for 
commemorating and interpreting the role of Buffalo Soldiers in 
the early years of the national parks. The Department supports 
this legislation.
    The study would determine the most effective way to 
increase understanding and public awareness of the very 
critical role that these African-American cavalrymen played in 
protecting Sequoia and Yosemite National Parks from 1891 to 
1914, and in laying the foundation for the National Park 
Service's stewardship practices throughout the national park 
system.
    And, finally, H.R. 4524 would authorize funding to protect 
and conserve lands contiguous with the Blue Ridge Parkway. The 
Department appreciates the strong interest in protecting scenic 
vistas along the Blue Ridge Parkway and the desire to have an 
initiative for the Parkway's 75th anniversary that the 
introduction of H.R. 2524 demonstrates.
    The magnificent views and recreational opportunities along 
the 469-mile parkway are the major reason why the Parkway has 
long been the National Park Service's most heavily visited 
unit.
    However, the Department does not support the legislation in 
its current form. We would welcome the opportunity to work with 
the Committee and the bill's sponsor to develop a different 
approach toward promoting and incorporating the work of non-
profit conservation organizations in the protection of the 
Parkway's scenic resources.
    Mr. Chairman, that concludes my statements. I would be 
pleased to answer any questions that you may have.
    [The prepared statement of the U.S. Department of the 
Interior on H.R. 2100 follows:]

 Statement submitted for the record by the Bureau of Land Management, 
             U.S. Department of the Interior, on H.R. 2100

    Thank you for the opportunity to testify on H.R. 2100, which 
proposes to transfer 315 acres of public lands managed by the Bureau of 
Land Management (BLM) to the Arizona Game and Fish Department (AGFD) 
for use as a public shooting range. The BLM supports the goals of the 
legislation, but we note that BLM is nearing completion of the 
administrative process to accomplish the transfer that the BLM has been 
following for the last ten years with the AGFD, the Fort Mojave Indian 
Tribe, the Hualapai Tribe, and the public to find appropriate lands for 
a public shooting range within the Mohave Valley in Arizona.
    On February 10, 2010, the BLM approved the decision to authorize 
the disposal of BLM lands to the AGFD (through the Recreation and 
Public Purposes Act; R&PP) to be used as a public shooting range. The 
decision, which is consistent with the goals of H.R. 2100, provides a 
safe, designated shooting environment for the public and includes 
stipulations to respect the traditional beliefs of the Fort Mojave and 
Hualapai Tribes. The near conclusion of the administrative process 
obviates the need for a legislatively mandated transfer. Since a final 
decision has been made through the administrative process, the BLM will 
continue working with interested parties as we move forward with 
implementation of the shooting range.
Background
    In 1999, the AGFD first submitted an application to the BLM for 
development of a public shooting range on BLM-managed lands in Mohave 
County, north of Bullhead City in northwestern Arizona. As a result, 
the BLM began working with AGFD and other interested parties to assess 
appropriate lands to transfer to the AGFD for the purposes of a 
shooting range under the R&PP.
    The BLM evaluated AGFD's application through an environmental 
assessment (EA) and considered numerous alternative locations 
throughout the Mohave Valley. The evaluation process was conducted with 
full public and tribal participation. There is an identified need for a 
designated public shooting range in this region because of the lack of 
a nearby facility, the amount of dispersed recreational shooting 
occurring on public and private lands raising public safety concerns, 
and the associated natural resource impacts from spent ammunition and 
associated waste.
    In 2002, the BLM began consultations with the Fort Mojave Indian 
Tribe and the Hualapai Tribe. In 2003, the BLM began formal 
consultation with the Arizona State Historic Preservation Officer 
(SHPO); and in 2006, the BLM began formal Section 106 consultation with 
the Advisory Council on Historic Preservation (ACHP). These 
consultations, as required by Section 106 of the National Historic 
Preservation Act and other authorities, ensure Federal Agencies 
consider the effects of their actions on historic properties, and 
provide the ACHP and SHPO an opportunity to comment on Federal projects 
prior to implementation.
    In addition to the consultation process, the BLM initiated a year-
long Alternative Dispute Resolution (ADR) process in 2004 to help 
identify issues, stakeholder perspectives, and additional alternatives 
to meet the criteria for a safe and effective public shooting range in 
the Mohave Valley. However, the ADR process failed to reconcile the 
differences between the consulting parties regarding a proposed 
location.
    In 2006, the BLM continued Section 106 consultation with the ACHP. 
This effort included site visits by the concerned parties and multiple 
efforts to determine possible mitigation and alternative sites. 
Regrettably, through all these efforts, the BLM was unable to reach an 
agreement with the tribes on any area within the Mohave Valley that 
they would find acceptable for a shooting range. The tribes maintained 
their position that there is no place suitable to them within the 
Mohave Valley, which encompasses approximately 140 square miles between 
Bullhead City, Arizona, and Needles, California.
    Through the EA process, the BLM identified the Boundary Cone Road 
alternative to be the preferred location. Boundary Cone Butte, one of 
the highly visible mountains in the Mohave Valley, lies east of the 
Boundary Cone Road site, and is of cultural, religious, and traditional 
importance to the Fort Mojave Indian Tribe and the Hualapai Tribe. In 
an effort to address the primary concerns expressed by the tribes over 
visual and sound issues, the BLM and AGFD developed a set of mitigation 
measures. Again, there was a failure to agree between the consulting 
parties on possible mitigation. In the end, the BLM formally terminated 
the Section 106 process with the ACHP in September 2008. In November, 
2008, ACHP provided their final comments in a letter from the Chairman 
to Secretary Kempthorne.
    Although the Section 106 process has concluded, the BLM has 
continued ongoing government-to-government consultations with the 
tribes. In May of 2009, the BLM met with the Chairman of the Fort 
Mojave Indian Tribe, the AGFD, and the Tri-State Shooting Club in a 
renewed effort to find a resolution. On February 3, 2010, after 
continued efforts to reach a mutually agreeable solution, the BLM 
presented the decision to approve the shooting range to the Fort Mojave 
Indian Tribe and the AGFD. The final decision includes mitigation 
measures to address the concerns of the tribes such as reducing the 
amount of actual ground disturbance; reducing noise levels with berm 
construction; monitoring noise levels and reporting annually; and 
fencing to avoid culturally sensitive areas. The Secretary has the 
authority to invalidate the patent if the AGFD fails to comply with 
mitigation measures. The final decision to amend the Kingman Resource 
Management Plan and dispose of the lands through the R&PP was signed on 
February 10, 2010. The 30-day appeal period expires at the end of March 
2010, after which BLM will work to resolve any appeals. Baring any 
outstanding issues the BLM then plans to issue the patent to transfer 
the public land after pre-construction requirements described in the 
final decision are completed.
H.R. 2100
    H.R. 2100 provides for the conveyance at no cost of approximately 
315 acres of BLM-managed public lands in Mohave County to the AGFD to 
be used as a public shooting range. These are generally the same lands 
that were approved for a public shooting range through the R&PP process 
as discussed above. The conveyance would be subject to valid existing 
rights and is intended to provide a suitable location for the 
establishment of a centralized public shooting facility in the Mohave 
Valley and the Tri-State Area (Arizona, Nevada, and California).
    As a matter of policy, the BLM supports working with local 
governments and tribes to resolve land tenure issues that advance 
worthwhile public policy objectives. BLM acknowledges the lands are of 
cultural, religious and traditional significance to the tribes which is 
why we support mitigation measures as part of H.R. 2100. In general, 
the BLM supports the goals of the proposed conveyance, as it is similar 
to the transfer BLM has been addressing through its administrative 
process for the last ten years. However, since a final decision has 
been made through the administrative process, the BLM will continue 
working with the interested parties, including tribes, during 
implementation of the shooting range to address their concerns. The BLM 
strongly believes that open communication between the BLM and tribes is 
essential in maintaining effective government-to-government 
relationships.
    If the Congress chooses to legislate this conveyance, the BLM would 
recommend some technical improvements to the bill, including the 
incorporation of mitigation measures to address tribal and other 
concerns, as well as a clause to allow the lands to revert back to BLM 
at the discretion of the Secretary if the lands are not being used 
consistent with the purposes allowed in the R&PP act.
Conclusion
    Thank you for the opportunity to testify. Resolution of this 
conveyance in a manner that is acceptable to all parties has been an 
important goal of the BLM as evidenced by more than 10 years of 
negotiations and review. The BLM is confident the recently approved 
decision adequately addresses the concerns of the interested parties, 
while providing critical recreational opportunities and benefits to the 
public.
                                 ______
                                 
    [The prepared statements of Mr. Whitesell on H.R. 3425, 
H.R. 4438, H.R. 4491, and H.R. 4524 follow:]

 Statement of Stephen E. Whitesell, Associate Director, Park Planning, 
 Facilities, and Lands, National Park Service, U.S. Department of the 
                         Interior, on H.R. 3425

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on H.R. 3425, a bill to authorize the Fair Housing 
Commemorative Foundation to establish a commemorative work on Federal 
land in the District of Columbia to commemorate the enactment of the 
Fair Housing Act.
    The Department appreciates the importance of the Fair Housing Act, 
a landmark law in a continuum of notable strides legislators and we as 
a Nation have undertaken to further the cause of civil rights for every 
American. However, the Department believes that the establishment of a 
memorial by an Act of Congress through the Commemorative Works Act 
(CWA) is not the most appropriate way to celebrate this important law. 
There are alternative means to acknowledge this achievement; therefore, 
we do not support this bill.
    The Commemorative Works Act has facilitated the establishment of 
memorials to prominent figures in our Nation's history, such as Dr. 
Martin Luther King, to events, such as the Korean War Veterans 
Memorial, and to concepts, such as Japanese-American Patriotism in 
World War II. H.R. 3425 would be the first proposal to establish a 
memorial to a law.
    There has certainly been landmark legislation which, like the Fair 
Housing Act, has improved the quality of life and opportunities for 
Americans in all walks of life such as the Civil Rights Act, the 
National Environmental Policy Act, and the National Aeronautics and 
Space Act. The list is honorable and long, but it is our opinion that 
the CWA was not intended to provide for the establishment of a national 
memorial to each law that could be nominated from this remarkable and 
growing list.
    The National Capital Memorial Advisory Commission (Commission) met 
on December 4, 2009, to consider this legislation and evaluate its 
conformance to the provisions of the CWA. As you are aware, the 
Commission was established by the CWA to provide advice to the 
Secretary of the Interior and to report to committees of Congress on 
proposals to establish commemorative works in the District of Columbia 
and its environs. The Commission found that establishing a memorial to 
individual laws is without precedent and that the establishment of a 
memorial to the passage of the Fair Housing Act would raise concerns 
about both the setting of such a precedent and the relative importance 
of this particular Act of Congress. For these reasons, the Commission 
voted unanimously to oppose this proposal and recommended that further 
counsel be sought from organizations with particular expertise on this 
subject matter (i.e., Department of Housing & Urban Development) 
regarding methods of commemorating this important law.
    While not part of the Commission's motion, the members voiced 
support for a commemoration of this law within the Capitol Visitor 
Center or at a housing development identified as a hallmark of the 
success of the Fair Housing Act.
    The Department concurs with the findings of the Commission. We 
would be pleased to offer whatever assistance we can provide to the 
Committee or the sponsor in developing any of the Commission's 
suggestions to more fully explain the important role the Fair Housing 
Act has played in the history of our Nation.
    Mr. Chairman, this concludes my prepared remarks. I would be happy 
to answer any questions that you or any other members of the 
Subcommittee may have.
                                 ______
                                 

 Statement of Stephen E. Whitesell, Associate Director, Park Planning, 
 Facilities, and Lands, National Park Service, U.S. Department of the 
                         Interior, on H.R. 4438

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on H.R. 4438, a bill to authorize the Secretary of the 
Interior to enter into an agreement to lease space from a nonprofit 
group or other government entity for a park headquarters at San Antonio 
Missions National Historical Park, to expand the boundary of the Park, 
to conduct a study of potential land acquisitions, and for other 
purposes.
    The Department supports H.R. 4438 with the amendments discussed in 
this testimony.
    This bill would amend Section 201 of Public Law 95-629 to direct 
the Secretary of the Interior (Secretary) to conduct a study of lands 
in Bexar and Wilson Counties to identify lands that would be 
appropriate to include within the boundaries of San Antonio Missions 
National Historical Park (Park). The Secretary is directed to report on 
the findings of the study three years after funds are made available. 
The Secretary would also be authorized to enter into a lease agreement 
with a non-profit organization, or State or local governmental agency, 
for office space outside the boundary of the park for a headquarters 
and operational support building and construction, management, or both, 
of a center for research and education. Finally, the boundary of the 
park would be expanded by approximately 151 acres.
    San Antonio Missions National Historical Park preserves a 
significant link to Mexico and Spain that has influenced the culture 
and history of the United States since before its inception. San 
Antonio is now the seventh largest and third fastest growing city in 
the United States. The city grew 68 percent between 1980 and 2007 and 
now almost entirely surrounds the Park with urban development, 
threatening areas that contain significant Spanish colonial resources 
historically associated with the Park.
    Park headquarters for San Antonio Missions are currently 
inadequate; do not meet fire, safety or security standards; and exist 
in an expired lease space not adjacent to the Park. The Park's 
maintenance operations are dispersed in three separate locations. The 
Park's curatorial collection, which contains almost one million Spanish 
Colonial period objects, is stored in four different locations, 
including two locations that do not meet National Park Service (NPS) 
Curatorial Storage Standards.
    The City of San Antonio, Texas, has acquired lands adjacent to 
Mission San Jose and has proposed a partnership with the Park and one 
of its partners for the construction of a new public library and park 
headquarters. A leasing arrangement such as the one described in H.R. 
4438 would provide the NPS with the option to enter into a lease 
agreement with an entity, such as Los Compadres de San Antonio Missions 
National Historical Park (Los Compadres), or a State or local 
government agency. As a part of the lease agreement, assistance with 
construction or management of a center for research and education might 
be possible. However, since there is ambiguity in this leasing language 
amending subsection (d) of P.L. 95-629, we would like to work with the 
committee on revising this subsection.
    H.R. 4438 would also expand the boundary of San Antonio Missions 
National Historical Park by approximately 151 acres, of which 118 acres 
are either currently owned by the NPS, are being donated, or are being 
transferred through a land exchange to the Park. All costs associated 
with the land exchange will be paid for by the San Antonio River 
Authority with the NPS only paying for minimal transaction costs. 
Thirty-three acres would either be purchased by the NPS from willing 
sellers or donated to the Park. It is estimated that the acquisition of 
these 33 acres could cost as much as $3,587,110 and operational costs 
associated with adding the 151 acres of land are not expected to exceed 
$100,000 per year. Associated land acquisition funding requests would 
be subject to the Administration's prioritization process that uses 
consistent and merit-based criteria to select projects and the 
availability of appropriations.
    The Park's General Management Plan and Land Protection Plan 
acknowledge that the current boundary is insufficient to fully achieve 
the Park's purpose. The Park's most recent feasibility study 
recommended a much larger area to best protect the cultural resources 
associated with the Park. Numerous areas that contain significant 
Spanish colonial resources historically associated with the Park, still 
remain outside the boundary. In addition, the Park has acquired lands 
that are outside the current boundary and is in the process of 
accepting additional lands that will be included within the boundary as 
a part of a land exchange with the San Antonio River Authority and U.S. 
Army Corps of Engineers to facilitate restoration of the San Antonio 
River.
    H.R. 4438 would also authorize the Secretary to conduct a study of 
lands within Bexar and Wilson counties, in the State of Texas, to 
identify lands that would be suitable for inclusion within the 
boundaries of the Park. The study should also explore management 
alternatives that would best ensure public access, preservation, 
protection, and interpretation of the Missions. We estimate that this 
study will cost approximately $350,000.
    H.R. 4438 enjoys the strong support of officials from Bexar County, 
Wilson County, the City of San Antonio, the City of Floresville, the 
San Antonio River Authority, the San Antonio Conservation Society, Los 
Compadres, and others. This bill would help guarantee the preservation, 
protection, restoration, and interpretation of the missions for current 
and future generations.
    Mr. Chairman, that concludes my prepared remarks. I would be happy 
to answer any questions you or any other members of the Subcommittee 
may have.
                                 ______
                                 

 Statement of Stephen E. Whitesell, Associate Director, Park Planning, 
 Facilities, and Lands, National Park Service, U.S. Department of the 
                         Interior, on H.R. 4491

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on H.R. 4491, to authorize the Secretary of the 
Interior to conduct a study of alternatives for commemorating and 
interpreting the role of the Buffalo Soldiers in the early years of the 
National Parks, and for other purposes.
    The Department supports H.R. 4491. However, we feel that priority 
should be given to the 48 previously authorized studies for potential 
units of the National Park System, potential new National Heritage 
Areas, and potential additions to the National Trails System and 
National Wild and Scenic River System have not yet been transmitted to 
Congress.
    H.R. 4491 would authorize a study to determine the most effective 
ways to increase understanding and public awareness of the critical 
role that the Buffalo Soldiers, segregated units composed of African-
American cavalrymen, played in the early years of the National Parks. 
It would evaluate the suitability and feasibility of a National 
Historic Trail along the routes between their post at the Presidio of 
San Francisco and the parks they protected, notably Yosemite and 
Sequoia. The study would also identify properties that could meet the 
criteria for listing in the National Register of Historic Places or 
designation as National Historic Landmarks. We estimate that this study 
will cost approximately $400,000.
    African-American 19th and 20th century Buffalo Soldiers were an 
important, yet little known, part of the history of some of our first 
National Parks. These cavalry troops rode more than 320 miles from 
their post at the Presidio to Sequoia and Yosemite National Parks in 
order to patrol and protect them. The journey across the state took 
sixteen days of serious horseback riding averaging over twenty miles a 
day. Once in the parks, they were assigned to patrol the backcountry, 
build roads and trails, put a halt to poaching, suppress fires, halt 
trespass grazing by large herds of unregulated cattle and sheep, and 
otherwise establish roles later assumed by National Park rangers.
    The U.S. Army administered Sequoia and Yosemite National Parks from 
1891 to 1914, when it was replaced by civilian management. The National 
Park Service was not created until 1916, 25 years after these parks 
were established. Commanding officers became acting military 
superintendents for these national parks with two troops of 
approximately 60 cavalry men assigned to each. The troops essentially 
comprised a roving economy--infusing money into parks and local 
businesses--and thus their presence was generally welcomed. The 
presence of these soldiers as official stewards of park lands prior to 
the National Park Service establishment brought a sense of law and 
order to the mountain wilderness.
    There is, however, a little known chapter within the story of the 
U.S. Army in the parks. It revolves around the participation of 
African-American troops of the 24th Infantry and 9th Cavalry, the 
Buffalo Soldiers, who protected both Sequoia and Yosemite National 
Parks in 1899, 1903, and 1904. These troops and their contributions 
should be recognized and honored, and this bill does just that.
    When the new military superintendent for the summer of 1903 arrived 
in Sequoia National Park he had already faced many challenges. Born in 
Kentucky during the Civil War, Charles Young had already set himself a 
course that took him to places where a black man was not often welcome. 
He was the first black to graduate from the white high school in 
Ripley, Ohio, and through competitive examination he won an appointment 
to the U.S. Military Academy at West Point in 1884. He went on to 
graduate with his commission, only the third black man to do so.
    In 1903, Young was serving as a captain in the cavalry commanding a 
segregated black company at the Presidio of San Francisco when he 
received orders to take his troops to Sequoia National Park for the 
summer. Young and his troopers arrived in Sequoia after a 16-day ride 
to find that one of their major assignments would be the extension of 
the wagon road. Hoping to break the sluggish pattern of previous 
military administrations, Young poured his considerable energies into 
the project. During the summer of 1903, Young and his troops built as 
much road as the combined results of the three previous summers, as 
well as building a trail to the top of Mt. Whitney- the highest point 
in the contiguous United States.
    The soldiers also protected the giant Sequoias from illegal 
logging, wildlife from poaching, and the watershed and wilderness from 
unauthorized grazing by livestock. A difficult task under any 
circumstances, the intensity was undoubtedly compounded by societal 
prejudice common at the turn of the century.
    Although Colonel Charles Young only served one season as Acting 
Superintendent of a National Park, he and his men have not been 
forgotten. The energy and dignity they brought to this national park 
assignment left a strong imprint. The roads they built are still in use 
today, having served millions of park visitors for more than eighty 
years. The legacy they left extends far beyond Sequoia National Park, 
as they helped lay the foundation for the National Park System, which 
continues to inspire and connect people of all backgrounds to public 
lands and natural treasures to this day.
    In recent years the National Park Service has made an effort to 
chronicle the achievements of these men in San Francisco, Sequoia and 
Yosemite National Parks. In the Presidio of San Francisco, Golden Gate 
National Recreation Area and the Presidio Trust have developed an 
education program using the historic stables that the Buffalo Soldiers 
actually used to house their horses. In Yosemite National Park, Ranger 
Shelton Johnson portrays one of the U.S. Army's Buffalo Soldiers as 
part of his interpretation of Yosemite's history. Sequoia National Park 
has a giant Sequoia named for Colonel Young in honor of his lasting 
legacy in that park. These isolated, but important efforts to educate 
the public on the important role of the Buffalo Soldiers could be 
heightened by this consolidated study.
    There is a growing concern that youth are becoming increasingly 
disconnected with wild places and our national heritage. Additionally, 
many people of color are not necessarily aware of national parks and 
the role their ancestors may have played in shaping the national park 
system. NPS can help foster a stronger sense of awareness and knowledge 
about the natural and cultural history preserved in our natural parks 
by connecting people, especially these audiences, to the critical roles 
of African-American Buffalo Soldiers in the protection and development 
of natural treasures like Sequoia and Yosemite National Parks. By 
amplifying the story of the Buffalo Soldiers, this bill could help 
bridge cultural divides and expand opportunities to appeal to an all-
inclusive audience. As the 2016 centennial of the National Park Service 
approaches, it is an especially appropriate time to conduct research 
and increase public awareness of the stewardship role the Buffalo 
Soldiers played in the early years of the National Parks.
    Mr. Chairman, this concludes my testimony. I would be glad to 
answer any questions that you or other members if the subcommittee may 
have.
                                 ______
                                 

 Statement of Stephen E. Whitesell, Associate Director, Park Planning, 
 Facilities, and Lands, National Park Service, U.S. Department of the 
                         Interior, on H.R. 4524

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 4524, a bill to authorize 
funding to protect and conserve lands contiguous with the Blue Ridge 
Parkway to serve the public, and for other purposes.
    The Department appreciates the strong interest in protecting scenic 
vistas along the Blue Ridge Parkway and the desire to have a major 
initiative for the parkway's 75th anniversary that the introduction of 
H.R. 4524 demonstrates. The magnificent views and recreational 
opportunities along the 469-mile parkway are the major reason why the 
parkway has long been the National Park Service's most heavily visited 
unit. However, the Department does not support this legislation in its 
current form. We would welcome the opportunity to work with the 
committee and the bill's sponsors to develop a different approach 
toward promoting and incorporating the work of nonprofit conservation 
organizations in the protection of the parkway's scenic resources.
    We are sympathetic to the desire of supporters of the Blue Ridge 
Parkway to find a mechanism to quickly channel land acquisition funds 
to protect the stunning views and the recreational opportunities that 
are so highly valued by visitors to the parkway. The parkway has 
identified a number of land acquisition goals in its Land Protection 
Plan that, along with the lands adjacent to the parkway threatened by 
encroaching development, could easily add up to the 50,000 acres 
envisioned to be protected under H.R. 4524.
    Other units of the National Park System have also identified 
opportunities for land acquisition to protect resources from 
encroaching development. The Administration proposes to begin 
addressing these needs with a request in the FY 2011 budget of $106 
million for National Park Service land acquisition--a significantly 
larger amount than has been requested or appropriated for many years. 
The FY 2011 request is the first step toward the Administration's goal 
of providing a total of $900 million a year--full funding--for federal 
land acquisition and other programs funded through the Land and Water 
Conservation Fund, and it holds the hope that within a few years we 
will be able to better address the needs at many more of our units, 
including the Blue Ridge Parkway.
    As desirable as it would be to acquire more land at the Blue Ridge 
Parkway, we find the approach taken by H.R. 4524 problematic, as it 
would duplicate existing law in some instances and establish new law 
that would not be appropriate in others. It would also conflict with 
the Administration's specific land acquisition priorities for FY 2011.
    Section 4 of H.R. 4524 would authorize the Secretary of the 
Interior to acquire up to 50,000 acres of adjacent land that is 
identified in the parkway's Land Protection Plan or that meets the 
plan's amendment criteria. However, the authority to acquire lands 
contiguous to the parkway already exists; therefore this language is 
unnecessary.
    Section 5(a) would authorize appropriations of $15 million for each 
of Fiscal Years 2011 through 2015 for the land acquisition authorized 
by this bill. As with section 4, this subsection is unnecessary because 
unlimited authority for appropriations for land acquisition at the 
parkway already exists.
    Although subsection 5(a) may be viewed as sending a message that 
Congress desires that $15 million a year for five years be appropriated 
for the parkway, we note that such funding is not included in the 
Administration's FY 2011 budget request. Although we cannot predict 
what the Administration might request for specific land acquisition 
projects for the next four years, it would be unusual, even with higher 
overall levels of land acquisition funding, to request this much for 
one park. Any request for this park would be subject to the 
Administration's prioritization process that uses consistent and merit-
based criteria to select projects.
    Section 5(b) would authorize the Secretary to use funds 
appropriated for land acquisition at the Blue Ridge Parkway to award 
grants for certain purposes. This grant authority would be 
unprecedented. One purpose of the grants would be to acquire land and 
interests in land, although the bill does not specify what guarantee 
the taxpayer would receive that the lands would be permanently 
protected. We would like to consider how such authority might be used 
to supplement, yet not duplicate, the National Park Service's own land 
acquisition capability, which is funded directly by Congress. We are 
fortunate to have an office that handles land acquisition for the Blue 
Ridge Parkway--the National Park Service's National Trails Office in 
Martinsburg, West Virginia--that is so well regarded for its expertise 
in acquisition at linear units that other federal agencies have used 
its services for that purpose. We are also fortunate to have the 
expertise and leveraging capability of several nonprofit land 
conservation organizations in protecting lands that are critical to the 
integrity of the Blue Ridge Parkway. We need to employ both 
capabilities in this cause.
    Subsection 5(b) as introduced lacks provisions regarding intended 
recipients and requirements for disposition of the land acquired 
through grants, so we are unclear about exactly what is intended. 
However, this proposed authority may be the seed of an idea for better 
utilizing the capabilities of nonprofit land conservation organizations 
in the protection of the Blue Ridge Parkway. The organizations have at 
their disposal certain resources and tools that federal land 
acquisition officials lack. We would like to work with the committee 
and the bill's sponsors to explore ways to enhance the use of the 
organizations' capabilities in the cause of protecting the parkway.
    The second purpose of the grants would be to enter into cooperative 
agreements with nonprofit conservation organizations for technical 
expense assistance, such as appraisals and hazardous material surveys, 
for lands the organizations acquire for conveyance to the parkway. It 
is a common practice for conservation organizations to acquire land for 
potential addition to National Park Service units with the intent of 
holding the properties until the National Park Service is able to 
acquire them. However, in these cases, the expenses associated with 
acquiring these lands are borne by the organizations; they are not paid 
by the National Park Service unless arrangements are made in advance to 
coordinate the ordering of these services to avoid duplication of the 
expenses. We are concerned that paying for expenses associated with 
acquisition in advance of a conveyance would raise expectations about 
acquiring property that might not be met. In addition, setting this 
precedent for federal funding of non-federal administrative costs would 
treat land acquisition at the Blue Ridge Parkway differently than 
acquisition at every other unit of the National Park System, which 
would not be fair or appropriate.
    Finally, Section 5(d) makes clear that the cooperative agreement 
arrangements with nonprofit organizations that are contemplated in this 
legislation could entail annual payments of as much as $250,000 a year 
to defray the organizations' ``administrative expenses,'' which would 
not necessarily be limited to costs associated directly with land 
acquisition. This could open the door to the reimbursement of costs 
that are unrelated to the purposes of the Land and Water Conservation 
Act. Since the act prohibits federal employees from being paid for any 
expenses not related to federal land acquisition from funds 
appropriated for land acquisition, it would run counter to the spirit 
of the act to allow non-federal employees to be paid for expenses not 
related to federal land acquisition.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir. Let me skip out of order. Mr. 
Brown has a pending meeting shortly, and I would extend to him 
the opportunity to ask his questions so he can attend that 
meeting. Sir.
    Mr. Brown. Thank you, Mr. Chairman. Thank you for appearing 
here today. This Committee is very well aware that the National 
Park Service has a backlog of management and it has problems in 
maintaining the Park Service properties that it currently owns.
    Would adding more park land for these four Park Service 
bills, would that actually add more burden on the finances that 
you currently have?
    Mr. Whitesell. Well, certainly it would add additional 
resources to our responsibilities, and thus would add, I 
suspect, if in fact all four bills were to be included, a 
limited amount of additional costs. I think that is relatively 
small in proportion to the total operation costs of the Park 
Service.
    Mr. Brown. But you already have difficulty maintaining what 
you have today; is that right?
    Mr. Whitesell. Certainly we can point out, yes, there are 
shortfalls in certain areas.
    Mr. Brown. OK. So the point being that adding more park 
land is going to add more burden upon the Park Service. It is 
already overburdened to try to maintain the lands that it 
currently owns.
    H.R. 4838 would expand the boundary of the San Antonio 
Missions Historical Park to include lands that are not owned by 
the Park Service currently today as you already testified. Who 
owns the lands that are not owned by the United States Park 
Service?
    Mr. Whitesell. OK. San Antonio already has a very complex 
ownership pattern, in terms of the Park resources that are 
protected today. They include ownership by the Archdiocese of 
San Antonio, the National Park Service. Bexar County owns 
property. The property is of the City of San Antonio, and the 
San Antonio River Authority, and other entities.
    So it is already a very complex mixture of lands. The 
proposed study would, of course, look to other resources that 
are not currently within those authorized boundaries. There are 
some areas, I think, that are already known that potentially 
should be looked at.
    There are other areas of resources that we just don't know 
and, in fact, that is the purpose of this study--to go forward 
and identify lands that might be appropriate for addition to 
the park.
    Mr. Brown. Are the lands proposed to be added to the park, 
are they already being kept for their historical significance 
if we would not pass this bill?
    Mr. Whitesell. There are some that are, yes. There are 
probably some lands that are in city ownership, potentially 
some lands that are in the ownership of other entities. As 
well, there may be lands for which there is inadequate 
protection right now, but again that is presupposing what would 
be part of the study.
    Mr. Brown. Do you have permission of the landowners that 
are not in the park for it to be included in the park?
    Mr. Whitesell. Certainly we would work with those 
landowners and discuss what is being looked at, and to solicit 
their opinions about whether addition of their lands, private 
lands in that case, would be appropriate.
    Mr. Brown. So the answer is no?
    Mr. Whitesell. Well, the answer is that right now, no, 
because I am not sure that we know exactly which lands those 
might be.
    Mr. Brown. All right, sir, the answer is no. Was any of the 
land to be added to the park obtained by governmental 
authorities by use eminent domain authority?
    Mr. Whitesell. Of the lands today?
    Mr. Brown. Yes, sir.
    Mr. Whitesell. That are currently in the boundaries?
    Mr. Brown. Yes, sir.
    Mr. Whitesell. I don't know whether eminent domain or 
connotation authority was used. I am sorry. I do know. There 
was at least one case of connotation authority being used in 
the past.
    Mr. Brown. Is there anything incorporated in this proposed 
study of San Antonio that would consider the effect on private 
lands adjacent to these lands that are proposed to be added to 
the park? In other words, what the effect on those adjacent 
lands may be.
    Mr. Whitesell. I mean, I think that would be part of the 
study. Certainly a series of public meetings, an opportunity 
for the public to comment and to have a dialogue with those 
doing the study to discuss those very issues.
    Mr. Brown. OK. Thank you very much. Mr. Chairman, I have no 
further questions.
    Mr. Grijalva. Thank you, sir. Mr. Whitesell, as the former 
superintendent of the San Antonio Missions, could you describe 
as best you can specifically the resources in this that still 
need protection, and that are in the vicinity of the park that 
would be part of the consideration of the study?
    Mr. Whitesell. For which we might take a look. There are 
lands that include some of the headwaters potentially of the 
San Antonio River, the very birthplace of the city. I mean, the 
very reason for creating the missions in San Antonio was the 
availability of a water supply.
    There are some questions about whether that land needs to 
be protected or not. San Pedro Park in the downtown section of 
San Antonio, the City of San Antonio owns that, and has an 
interest potentially in that being considered, as well as lands 
immediately adjacent to the current park boundaries and south 
of the park for which today there may not be complete 
protection.
    Those include lands that are the ends of the Acequia 
system, which was the historic irrigation system serving the 
park lands.
    Mr. Grijalva. And under the Buffalo Soldiers, H.R. 4491, in 
this study do you see it providing any unique challenges to the 
National Park Service, and if there are some challenges, how do 
you see addressing those?
    Mr. Whitesell. I think that each time that we do a study of 
a potential trail system, it presents an interesting challenge 
for us in identifying what are the appropriate resources that 
might make up a trail if that designation were to be made.
    And, of course, as you look at the alignment that 
potentially this trail might follow, it goes through some 
fairly heavily urbanized areas in San Francisco as you head 
south on the peninsula, and before you move inland toward 
Sequoia and Kings Canyon.
    So the identifying of appropriate historic resources that 
might be protected, an identification of an alignment, always 
creates a challenge in that sort of environment, but it is 
certainly not the first time, nor do I expect the last time, 
that we will look at those kinds of activities.
    Mr. Grijalva. Thank you, sir. Let me turn to, I guess, H.R. 
2100, and Mr. Roberson, I guess, those questions are 
appropriate for you. On the 10th of February, BLM announced a 
decision to convey 315 acres to the Arizona Game and Fish 
Department, to use 20 acres to construct and operate a shooting 
range.
    If the Arizona Game and Fish Department can use only 20 
acres, why the conveyance of 315 acres, the proposed 
conveyance?
    Mr. Roberson. Thank you, Mr. Chairman. The original 
proposal came to us as 315 acres, and we evaluated that entire 
site, and the decision actually makes a plan amendment for that 
entire site.
    The decision that we rendered on the 10th for 20 acres to 
be actively used for the shooting range itself was a part of a 
mitigation to tailor the needs for a shooting range at that 
size, and to build in some mitigation for sound and noise. So 
we----
    Mr. Grijalva. In that process though, isn't that process of 
the conveyance, the proposed conveyance, any thought to the 
effects of the removal of these 315 acres from coverage of such 
laws as Native Americans Graves and Protection Recreation Act, 
and the Archeological Resources Protection Act? Because once 
conveyed, those protections disappear?
    Mr. Roberson. Well, we do. There are some areas, tracts of 
land that are conveyed under the Recreation and Public Purpose 
Act have reservations, and can be returned to public domain if 
they are not used according to the management plan.
    There is an area, a circular area, that has been identified 
in the decision that has importance to the native people there, 
and it would be flagged during any development and fenced to 
preserve and to protect it from any encroachment upon it.
    Mr. Grijalva. Well, I think the fundamental question would 
be, given the controversy surrounding the potential conveyance, 
why are we proceeding with the transfer? And, are you required 
by law to transfer land to any entity that requests it?
    Mr. Roberson. Number one, as a multi-use agency, Mr. 
Chairman, we are obliged to entertain applications, and ensure 
that they are consistent with our land use plans. If they are 
not, we can still evaluate them to determine if they are an 
appropriate use, and to tailor the mitigation to make sure that 
use does not affect other resources, such as tribal or cultural 
affiliations or properties.
    And this decision to make this transfer was part of an 11 
year process. We actually received the application in 1999. We 
started working on the project in 2002 in earnest, and began 
consultation with the tribes, and actually started having 
public meetings.
    Throughout that meeting process, there was a need 
identified in the Mohave Basin area for a shooting range, 
something within 20 miles or 30 minutes of Bullhead City, and 
so we did feel that was an appropriate use that was being 
requested of us, and we gave full participation to a process.
    Mr. Grijalva. Yes, and the consultation process under 
Section 110 of the National Historic Preservation Act, the 
chair of that advisory committee on historic preservation 
formally commented that BLM should not go forward with the 
proposed shooting range.
    And on the last day of the previous Administration's 
working day, the order was signed to move forward with the 
conveyance despite the consultation comments from Section 110, 
which begs the point that at what point was the decision made 
that a shooting range held priority over the delicacy of sacred 
lands on this issue. That disturbs me.
    And what also disturbs me is when we say we are going to go 
through a full NICA process, but what good would that process 
be once a decision has already been made to convey? How would 
we mitigate after that, and was that the only site looked at?
    I understand the need, and I appreciate the safe area away 
from populations for the shooting range activities, but I am 
not convinced that this is the only site available for this 
activity. I make that as a comment, sir, and not as a question, 
unless you agree with me.
    Having said that, let me now turn to Mr. Duncan, who was 
here earlier, for any questions that he might have.
    Mr. Duncan. Well, thank you, Mr. Chairman. I don't have any 
questions, but I will make a few comments. Number one, I do 
support Mr. Franks' bill to create a shooting range. I think we 
need to teach more young people in this country to properly use 
firearms, and to encourage hunting.
    There is a real deer problem all over the country, and so 
certainly I think to have a nice shooting range to help 
encourage those types of things is a good thing. These bills 
today involve just a very small amount of land, but some of us 
on this side have problems, because already about 30 percent of 
the land is owned by the Federal Government, and another almost 
20 percent is owned by state and local governments, or quasi-
governmental units.
    So you have about half the land in some type of public 
ownership. Then I read a couple of years ago in USA Today that 
they had a front page story, which said that we have over 
fourteen hundred conservancies or land trusts now that are 
taking over land equal to half the size of the State of New 
Jersey each year. That was the example given in USA Today.
    And we keep taking several million acres of land every year 
off the tax rolls, and we are doing that at the same time that 
the schools and the law enforcement agencies, and all these 
other government entities are coming to us and telling us that 
they need more money.
    And it is getting to the point where we are not going to be 
able to support the schools and the law enforcement agencies, 
and fix the roads, and so forth, if we keep taking more and 
more land off the tax rolls.
    Then, in addition, you are going to drive up the taxes on 
the remaining land, and it is leaving less land for good 
development. So it is making it harder for young people to be 
able to buy homes because we are making the property so 
expensive, and so it is creating a lot of unintended problems.
    And I know that it sounds great for all politicians to 
create parks, but we have created so many parks that we can't 
take care of all of them that we have, and in addition to that, 
unless we find some way for our people to go on permanent 
vacations, we can't really use them to any real extent most of 
them.
    So we do have this concern on this side that we are slowly 
destroying private property in this country, and we need to 
wake up about this and tell our people that private property 
has been a very important part of our prosperity and our 
freedom in this country, and we are getting to a very dangerous 
point in my opinion.
    That is the concern we have, because almost every other 
week or every month in this Committee we have people coming to 
us wanting us to take more property over by the government. So 
with those concerns, I will yield back.
    Mr. Grijalva. Thank you, sir. Congresswoman Lummis, any 
comments or questions?
    Ms. Lummis. Yes, Mr. Chairman. I would request that a 
letter, dated February 24th, 2010, from the NRA and addressed 
to The Honorable Trent Franks, be included in the record, 
please.
    Mr. Grijalva. Without objection.

    [The letter from the National Rifle Association submitted 
for the record follows:]

NATIONAL RIFLE ASSOCIATION OF AMERICA
INSTITUTE FOR LEGISLATIVE ACTION
410 FIRST STREET, S.E., SECOND FLOOR
WASHINGTON, DC 20003-1867

February 24, 2010

The Honorable T1'ent Franks
1237 Longworth House Office Building
Washington, D.C. 205150302

Dear Congressman Franks:

    I write to express the National Rifle Association's support of H.R. 
2100, your legislation intended to facilitate the development of a 
shooting complex in Mohave County. The proposed land transfer from the 
Bureau of Land Management (BLM) to the Arizona Game and Fish Department 
is an essential first step toward making the complex a reality.
    As you know well, Arizona's population has experienced exponential 
growth for years. This has resulted in the development of areas in 
Mohave County where families have traditionally been able to shoot 
recreationally in an informal setting. In addition to development 
closing once available land to shooting, federal land management 
agencies have closed tens of thousands of acres of land to shooting in 
Arizona. Demand for shooting locations has grown while the number of 
places to shoot has decreased. Your H.R. 2100 takes a significant step 
toward remedying this demand and supply imbalance in Mohave County.
    In light of the fact that the federal government has closed 
enormous tracts of land to recreational shooting in Arizona, the land 
transfer to the state for a formal shooting facility should not be 
considered too much to ask. The Arizona Game and Fish Department has an 
outstanding track record with regard to operating world-class shooting 
ranges. One needs to look no further than Ben Avery Shooting Facility 
just north of Phoenix to know this.
    Gun owners throughout Arizona appreciate your efforts to secure a 
safe and effective place to pursue firearms training.

Sincerely,

Charles H. Cunningham
Director of Federal Affairs
www.nraila.org
                                 ______
                                 
    Ms. Lummis. Thank you, and just a couple of comments as 
well. With regard to the Buffalo Soldiers bill, Buffalo 
Soldiers were very significant in the history of my State, and 
played a role at Fort D.A. Russell, which is now F.E. Warren 
Air Force Base in Cheyenne, Wyoming.
    And I am so pleased to see efforts to further recognize the 
role the Buffalo Soldiers. It is another important part of 
Americana that very few people know about, and also with regard 
to the Rodriguez bill regarding the San Antonio Missions, I 
come from a long line of interesting and bizarre characters.
    And among them a gentleman named Charles F. Lummis, who was 
instrumental in founding the historical preservation efforts in 
California, which was centered at that time around the 
missions, to the extent that his work preserving San Juan 
Capistrano, and other of the southern missions in California, 
allowed him to be knighted by the King of Spain for his 
efforts.
    He also chronicled the capture of Geronimo as the official 
journalist on that expedition, and played other roles in the 
significant history of the Southwest. So I am so pleased to see 
the missions of the Southwest continue to have prominence in 
our discussions. Thank you, Mr. Chairman, for the opportunity 
to comment and I yield back.
    Mr. Grijalva. Thank you very much. Let me thank the 
panelists, and I agree with Mr. Duncan that there has to be 
facilities available for the proper education of gun safety and 
its use. Maybe we disagree on the site, but certainly not in 
the intent.
    Particularly, we began on February 22 the will of Congress 
and the effect of law. The law is that guns are going to be 
carried on our public parks, and if that is going to be the 
situation, I sure would like those carriers to know what they 
are doing. With that, thank you so much. Let me invite panel 
three.
    [Pause.]
    Mr. Grijalva. Thank you very much for being here, and let 
me welcome the panelists. H.R. 2100, all three panelists will 
be commenting on that piece of legislation. Let me begin with 
Loretta Jackson-Kelly, Director of the Department of Cultural 
Resources, Tribal Preservation Officer, Hualapai Tribe, Peach 
Springs, Arizona. Welcome, and I look forward to your comments.

 STATEMENT OF LORETTA JACKSON-KELLY, DIRECTOR OF DEPARTMENT OF 
   CULTURAL RESOURCES, TRIBAL PRESERVATION OFFICER, HUALAPAI 
                 TRIBE, PEACH SPRINGS, ARIZONA

    Ms. Jackson-Kelly. Mr. Chairman, and members of the 
Committee, I am a Hualapai Tribal Member of the Hualapai Tribe, 
and good morning to you all, and thank you for the opportunity 
so that I can present testimony about the concerns of the 
Hualapai Tribe with respect to Wi'vis'--Kwi--va, known in 
English as Boundary Cone Butte, which is located on land 
currently under the Bureau of Land Management in Mohave County, 
Arizona.
    Boundary Cone Butte holds religious and cultural importance 
for the Hualapai Tribe, as well as for the Fort Mojave Tribe, 
and because of its importance for both tribes, Boundary Cone 
has been determined to be eligible for the National Register as 
a traditional cultural property, ATCP.
    The sanctity of Boundary Cone is crucial to the ability of 
tribal religious practitioners to carry on traditional 
practices and to pass these traditions along to younger 
generations.
    The two tribes are closely related to each other culturally 
and Boundary Cone is located in an area that each tribe regards 
as being within its aboriginal lands. For many years the 
sanctity of Boundary Cone has been threatened by a proposal to 
construct and operate a shooting range on nearby Federal 
landscape.
    This Committee has jurisdiction over a bill that has been 
introduced in this Congress, H.R. 2100, which would direct the 
Secretary of the Interior to convey land in Mohave County to 
the Arizona Game and Fish Department for a shooting range.
    The Hualapai Tribe is opposed to H.R. 2100. This bill 
should be stopped. The tribe recognizes however that to protect 
Boundary Cone that it is not enough to prevent the enactment of 
H.R. 2100, because on February 10, 2010, the BLM decided to 
approve the conveyance of the land that would make the shooting 
range a reality.
    H.R. 2100 would be irrelevant because the conveyance of 
land will already have taken place without a specific mandate 
from Congress. BLM decided to convey 350 acres of Federal land 
to the Arizona Game and Fish Department for the State for use 
as a shooting range.
    The proposed site for the shooting range is about two miles 
from Boundary Cone. On that same date, the BLM also issued a 
finding of no significant impact, a fallacy, based on an 
Environmental Assessment for the proposed action.
    The EA determined that the operation of a shooting range so 
close to Boundary Cone will cause adverse effects on Boundary 
Cone, especially from the noise from the shooting range, which 
will interfere with traditional religious and cultural 
practices by members of both tribes.
    The Advisory Council of Historic Preservation recognized 
that the noise caused by the shooting range would severely 
disrupt the sanctity of Boundary Cone. In a formal letter to 
Secretary of the Interior Dirk Kempthorne, dated November 3, 
2008, John Nau, III, Chairman of the Advisory Council, said, in 
part, there is a basic incompatibility between the land uses of 
a shooting range in an area where traditional cultural use 
would be disrupted by the audible intrusions of repeated 
gunfire.
    He called it a basic incompatibility. In addition to the 
adverse effects on the integrity of Boundary Cone, and the 
characteristics that give the place historic significance, the 
audible intrusions of repeated gunfire will impose a burden on 
the exercise of religious practices by traditional tribal 
members.
    This proposed shooting range has been sought for more than 
decade by the Tri-State Shooting Recreation Center, 
Incorporated, which has been pushing the BLM to approve this 
project.
    The Hualapai Tribe has voiced its opposition since the 
spring of 2004. The failure of BLM to engage in consultation 
with the tribes early in the planning process resulted in an 
alternative dispute resolution, an 80 hour process conveyed by 
the United States Institute of Environmental Conflict 
Resolution.
    The Hualapai believes the failure of implementing solutions 
offered through the ADR process prevented the BLM to make a 
decision to prepare an Environmental Impact Statement, with a 
genuine search for alternative locations.
    In addition, the BLM announced that it was terminating the 
National Historic Preservation Act, Section 106, process. The 
decision record for the EA states that the BLM has completed 
the Section 106 process.
    In fact, the Section 106 process did not lead to the result 
that the BLM wanted. So, the BLM simply stopped trying to 
consult. When a Federal Agency terminates consultation, the 
head of the agency must formally request the advisory council 
to file comments on the proposed undertaking.
    If the Federal agency has not entered into an agreement 
pursuant to the advisory council regulations, then any decision 
to proceed with the undertaking, despite the failure to resolve 
adverse effects, must be made by the head of the agency.
    The statute says the head of the agency may not delegate 
his or her responsibilities pursuant to such section. In the 
case of the proposed shooting range near Boundary Cone, the 
documentation from the head of the National BLM was signed on 
January 16, 2009, by the person who was the acting director of 
BLM.
    Regardless of whether that action complies with the letter 
of the law, it subverted the spirit of the law. The rationale 
for elevating this decision to the head of the national agency 
is to provide some degree of accountability. There is no 
accountability when an administration makes such a decision on 
its last working day in office.
    The fact that this proposal has even been given serious 
consideration by BLM and project component conveys the message 
that they do not understand the importance of the Mohave Valley 
landscape for the cultural identity for each of the tribes 
involved.
    The tribes continue to believe that an acceptable 
alternative location could be found if the proponents of the 
project really wanted to. In any case, the tribes do not 
believe that their freedom of religions and cultural identities 
should be sacrificed to make way for this project. Thank you, 
Mr. Chairman.
    [The prepared statement of Ms. Jackson-Kelly follows:]

   Statement of Loretta Jackson-Kelly, Tribal Historic Preservation 
Officer, Director, Department of Cultural Resources, Hualapai Tribe of 
                         Arizona, on H.R. 2100

    Thank you for the opportunity to present testimony about the 
concerns of the Hualapai Indian Tribe with respect to Wi `vis'--Kwi--
va, known in English as Boundary Cone Butte, which is located on land 
currently under the jurisdiction of the Bureau of Land Management in 
Mohave County, Arizona. Boundary Cone Butte holds religious and 
cultural importance for the Hualapai Tribe as well as for the Fort 
Mojave Indian Tribe. Because of its importance for both Tribes, 
Boundary Cone Butte has been determined to be eligible for the National 
Register as a traditional cultural property.
    The sanctity of Boundary Cone Butte is crucial to the ability of 
tribal religious practitioners to carry on traditional practices and to 
pass these traditions along to younger generations. The two Tribes are 
closely related to each other culturally, and Boundary Cone Butte is 
located in an area that each Tribe regards as being within its 
aboriginal homeland.
    For many years, the sanctity of Boundary Cone Butte has been 
threatened by a proposal to construct and operate a shooting range on 
nearby federal land. This Committee has jurisdiction over a bill that 
has been introduced in this Congress, H.R. 2100, which would direct the 
Secretary of the Interior to convey land in Mohave County to the 
Arizona Game and Fish Department for a shooting range. The Hualapai 
Tribe is opposed to H.R. 2100. This bill should be stopped. The Tribe 
recognizes, however, that, to protect Boundary Cone Butte, it is not 
enough to prevent the enactment of H.R. 2100, because on February 10, 
2010, the BLM decided to approve the conveyance of land that would make 
the shooting range a reality. H.R. 2100 would be irrelevant because the 
conveyance of land will already have taken place without a specific 
mandate from Congress.
    On February 10, 2010, the BLM decided to convey 315 acres of 
federal land to the Arizona Game and Fish Department (AGFD) for the 
State for use as a shooting range. The proposed site for the shooting 
range is about two miles from Boundary Cone Butte. On the same date 
that the BLM decision was announced, BLM also issued a finding of no 
significant impact (FONSI) based on an environmental assessment (EA) 
for the proposed action. As documented in the EA, the operation of a 
shooting range so close to Boundary Cone Butte will cause adverse 
effects on Boundary Cone Butte, especially the noise from the shooting 
range, which will interfere with traditional religious and cultural 
practices by members of the two Tribes.
    BLM made this decision despite a formal letter from the Advisory 
Council on Historic Preservation recommending that BLM not approve the 
Boundary Cone location. The Advisory Council recognized that the noise 
caused by a shooting range would severely disrupt the sanctity of 
Boundary Cone. In a letter to Secretary of the Interior Dirk 
Kempthorne, dated November 3, 2008, John Nau, III, Chairman of the 
Advisory Council, said, in part, ``There is a basic incompatibility 
between the land uses of a shooting range and an area where traditional 
cultural use would be disrupted by the audible intrusions of repeated 
gunfire.'' He called it ``a basic incompatibility.'' In addition to the 
adverse effect on the integrity of Boundary Cone Butte and the 
characteristics that give this place historic significance, the audible 
intrusions of repeated gunfire will impose a burden on the exercise of 
religious practices by traditional tribal members.
    This proposed shooting range has been sought for more than a decade 
by Tri-State Shooting Recreation Center, Inc., which has been pushing 
BLM to approve this project. The Hualapai Tribe found out about this 
project after the first EA and FONSI were released in December 2003, 
and the Tribe has voiced its opposition since the Spring of 2004. The 
Fort Mojave Tribe had become engaged in the environmental review 
process in the fall of 2003. After the failure of BLM to engage in 
consultation with the Tribes early in the planning process, an 
alternative dispute resolution process was convened by the U.S. 
Institute on Environmental Conflict Resolution. The Tribes believed 
that process would yield a genuine, if belated, effort to consider 
alternative locations. Unfortunately, those efforts collapsed. The 
Hualapai Tribe believes that the failure of the alternative dispute 
resolution should have led BLM to a decision to prepare an 
environmental impact statement with a genuine search for alternative 
locations.
    We note that the EA and FONSI for this project were prepared for 
compliance with the National Environmental Policy Act (NEPA). Of 
course, this proposed BLM decision is also subject to compliance with 
other federal environmental laws, including but not limited to the 
consultation process under section 106 of the National Historic 
Preservation Act (NHPA), as implemented through the regulations of the 
Advisory Council on Historic Preservation. 36 C.F.R. part 800. The EA 
attempts to convey the idea that BLM has made a genuine effort to 
fulfill its responsibilities under NHPA section 106. In describing 
mitigation measures, the EA says that BLM is requiring mitigation ``in 
recognition of the [Fort Mojave Indian Tribe] continued use of Boundary 
Cone Butte and the surrounding area in traditional cultural 
practices.'' EA at page 20. Similarly, the Decision Record states that 
BLM has completed the Section 106 process.'' Decision Record at page 9. 
In fact, when the Section process did not lead to the result that BLM 
wanted, BLM simply stopped trying to consult.
    After the failure of the alternative dispute resolution, BLM 
announced that it was ``terminating'' the NHPA Section 106 process. 
Under the Advisory Council's regulations, the federal agency can 
``terminate'' the consultation process upon determining that ``further 
consultation will not be productive.'' 36 C.F.R. Sec. 800.7(a). When 
the federal agency terminates consultation, the head of the agency must 
formally request the Advisory Council to file comments on the proposed 
undertaking. As set out in the regulations, after the Advisory Council 
comments, the head of the agency must ``take into account the Council's 
comments in reaching a final decision on the undertaking.'' 
Sec. 800.7(c)(4). The requirements set out in this section of the 
regulations are based on section 110(l) of the statute, 16 U.S.C. 
Sec. 470h-2(l), which provides that, for any proposed federal 
undertaking that adversely affects any property on or eligible for the 
National Register of Historic Places, if the federal agency has not 
entered into an agreement pursuant to the Advisory Council's 
regulations, then any decision to proceed with the undertaking despite 
the failure to resolve adverse effects must be made by the heads of the 
agency. The statute says, ``The head of the agency may not delegate his 
or her responsibilities pursuant to such section.''
    In the case of the proposed shooting range near Boundary Cone 
Butte, the documentation that the head of BLM actually considered the 
Advisory Council's comments, was signed on January 16, 2009, by the 
person who was the acting Director of BLM. Regardless of whether that 
action complies with the letter of the law, it subverted the spirit of 
the law. The rationale for elevating this decision to the head of the 
agency is to provide some degree of accountability--there is no 
accountability when an administration makes such a decision on its last 
working day in office.
    The fact that this proposal has even been given serious 
consideration by BLM and project proponents conveys the message to us, 
that they do not understand the importance of the Mojave Valley 
landscape for the cultural identity of each of the Tribes. The Tribes 
continue to believe that an acceptable alternative location could be 
found, if the proponents of the project really wanted to. In the first 
place, we believe that the footprint of the proposed shooting range 
could be reduced substantially.
    In any case, the Tribes do not believe that their freedom of 
religion and cultural identity should be sacrificed to make way for 
this project.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. Let me now ask Linda 
Otero, the Director of the Tribal Council, Fort Mojave Tribe. 
Thank you for being here, and I look forward to your testimony.

   STATEMENT OF LINDA OTERO, DIRECTOR OF AHA MAKAV CULTURAL 
      SOCIETY, TRIBAL COUNCIL MEMBER, NEEDLES, CALIFORNIA

    Ms. Otero. Good morning, Mr. Chairman, and Members of the 
Subcommittee. For the record, my name is Linda Otero, and I am 
a Fort Mojave Tribal Council Member. I also serve as the 
Director of the Aha Makav Cultural Society.
    It is both an honor and a privilege to come before this 
Subcommittee to offer testimony on behalf of the Fort Mojave 
Indian Tribe.
    Since time immemorial, we, the Mojave people, have 
inhabited the area along the Colorado River on lands that are 
now within the States of Arizona, California, and Nevada.
    The Mojaves farmed in the receding annual floods, and 
hunted, fished, and gathered at all times of the year. We are 
the Aha Makav, the people of the river. The rocky peak that 
towers over the shooting range this bill would make possible is 
known to Euro-Americans as Boundary Cone Butte, but in our 
language, it is Avi Vasqui, meaning The Sharp Mountain.
    Much of our spiritual esoteric knowledge about Avi Vasqui 
is held in high esteem by our elders; to make it public would 
at best dilute its power, and at worst be dangerous both for 
the elders and for those receiving the information.
    We can say, however, that Avi Vasqui is our time piece, 
measuring the span of our Tribe's life; when Avi Vasqui is 
gone, the Mojave people will be gone as well. It plays many 
vital roles in our cultural lives, notably in our spiritual 
stories and song cycles.
    For instance, Avi Vasqui is an important landmark in the 
songs known as aquak, deer songs, tracing the path of the deer 
from the western to the eastern parts of our ancient homeland.
    Avi Vasqui was also the traditional home of one of our 
ancient chiefs, and our ancestors left signs of their ritual 
use of the area in the form of rock art and ceremonial circles. 
Ceremonial circles were and are regarded by our people as 
points of entry into other dimensions of reality.
    Construction and operation of a shooting range will have a 
variety of direct and indirect visual and auditory effects on 
our spiritual relationships with Avi Vasqui, and with the 
overall practice of our traditional religions.
    For this reason, we have participated in a lengthy program 
of consultation with the Bureau of Land Management and others 
seeking alternative locations for the desired facility. We 
believe that a number of such locations exists, and that the 
bars that the BLM perceives to using them are spurious.
    In the course of our consultation under Section 106 of the 
National Historic Preservation Act, BLM has acknowledged the 
cultural significance of Avi Vasqui, finding it to be eligible 
for the National Register of Historic Places as a traditional 
cultural property.
    BLM has acknowledged that construction and operation of the 
shooting range will adversely affect our cultural uses of Avi 
Vasqui. The Secretary of the Interior has received comments 
from the Advisory Council strongly recommending that BLM 
explore alternatives on the project as designed because of the 
project's impact on Avi Vasqui and our cultural values.
    Despite all this, BLM has astoundingly determined under the 
National Environment Policy Act that the project will have no 
significant impact on the quality of the human environment. On 
the strength of this unsupportable conclusion, BLM has sought 
Congress' blessing for the land transfer that is the subject of 
H.R. 2100.
    The Fort Mojave Indian Tribe is a Federally recognized 
tribe, with which the U.S. Government has a well-established 
trust relationship. This relationship requires the U.S. 
Government to do what it can to protect the Tribe's interests.
    Appropriate respect for our spiritual beliefs and practices 
is also mandated by the American Indian Religious Freedom Act, 
and the Religious Freedom Restoration Act. Yet, the BLM 
proposes that constructing a shooting range at the foot of Avi 
Vasqui, and thus interfering with the exercise of our 
traditional religion, does not significantly impact the quality 
of the human environment. We find this deeply insulting.
    And what keeps the BLM from exploring alternative sites for 
the shooting range? The primary impediment to considering 
alternatives is the insistence by the proponent, the Arizona 
Fish and Game Department, that this facility be within 15 miles 
and a 10 minute drive from Bullhead City.
    We respectfully suggest that Congress should not allow BLM 
to substantially burden the religious practices of a Federally 
recognized Indian tribe for the convenience of shooters in the 
vicinity of Bullhead City.
    The Mojave people have a right to practice the religion of 
our ancestors. We ask that Congress not take it away. In the 
past, the U.S. Government tried to make our grandparents give 
up their religion.
    Today, we are holding on, but we continue to have to fight 
to protect our sacred space. No one would approve continuous 
gunfire around a church. How can the U.S. Government approve of 
it in our sacred space?
    Our feelings of reverence at Avi Vasqui are precious and 
connect us to the higher power. Others would not like it if we 
tribal folks started shooting off our guns around a church 
during the singing of hymns. That is sacrilegious. The same 
goes for others directing such acts toward us. Please do not 
allow the BLM to commit such sacrilege. Please do not approve 
H.R. 2100.
    I thank the Subcommittee for allowing the Fort Mojave Tribe 
to provide their voice in this matter of great significance and 
importance to a people whose way of life and beliefs should 
remain undisturbed and whole, with the utmost integrity and 
respect for the land whose ancestor's remains marks the grounds 
of the Mohave Valley, our aboriginal holy lands.
    [The prepared statement of Ms. Otero follows:]

 Statement of Linda Otero, Tribal Council Member, Director, Aha Makav 
  Cultural Society, Fort Mojave Indian Tribe, California, Arizona and 
                          Nevada, on H.R. 2100

    My name is Linda Otero and I am a Fort Mojave Tribal Council 
Member. I am also the Director of the Aha Makav Cultural Society. Since 
time immemorial we, the Mojave People, have inhabited the area along 
the Colorado River on lands that are now within the States of Arizona, 
California and Nevada. The Mojaves farmed in the receding annual floods 
and hunted, fished and gathered at other times of the year. We are the 
Aha Makav, the people of the river.
    The rocky peak that towers over the shooting range this bill would 
make possible is known to Euroamericans as Boundary Cone Butte, but in 
our language it is Avi Vasqui, meaning ``The Sharp Mountain.'' Much of 
our spiritual esoteric knowledge about Avi Vasqui is held in high 
esteem by our elders; to make it public would at best dilute its power, 
and at worst be dangerous both for the elders and for those receiving 
the information. We can say, however, that Avi Vasqui is our time 
piece, measuring the span of our Tribe's life; when Avi Vasqui is gone, 
the Mojave people will be gone as well. It plays many vital roles in 
our cultural lives, notably in our spiritual stories and song cycles. 
For instance, Avi Vasqui is an important landmark in the songs known as 
aquak, deer songs, tracing the path of the deer from the western to the 
eastern parts of our ancient homeland. Avi Vasqui was also the 
traditional home of one of our ancient chiefs, and our ancestors left 
signs of their ritual use of the area in the form of rock art and 
ceremonial circles. Ceremonial circles were and are regarded by our 
people as points of entry into other dimensions of reality.
    Construction and operation of a shooting range will have a variety 
of direct and indirect visual and auditory effects on our spiritual 
relationships with Avi Vasqui, and with the overall practice of our 
traditional religions. For this reason, we have participated in a 
lengthy program of consultation with the Bureau of Land Management 
(BLM) and others seeking alternative locations for the desired 
facility. We believe that a number of such locations exist, and that 
the bars BLM perceives to using them are spurious.
    In the course of our consultation under Section 106 of the National 
Historic Preservation Act, BLM has acknowledged the cultural 
significance of Avi Vasqui, finding it to be eligible for the National 
Register of Historic Places as a traditional cultural property. BLM has 
acknowledged that construction and operation of the shooting range will 
adversely affect our cultural uses of Avi Vasqui. The Secretary of the 
Interior has received comments from the Advisory Council on Historic 
Preservation (attached) strongly recommending that BLM explore 
alternatives to the project as designed, because of the project's 
impacts on Avi Vasqui and our cultural values. Despite all this, BLM 
has astoundingly ``determined'' under the National Environmental Policy 
Act that the project will have no significant impact on the quality of 
the human environment. On the strength of this unsupportable 
conclusion, BLM has sought Congress' blessing for the land transfer 
that is the subject of H.R. 2100.
    The Fort Mojave Indian Tribe is a federally recognized tribe, with 
which the United States government has a well-established trust 
relationship. This relationship requires the United States government 
to do what it can to protect the Tribe's interests. Appropriate respect 
for our spiritual beliefs practices is also mandated by the American 
Indian Religious Freedom Act and the Religious Freedom Restoration Act. 
Yet BLM proposes that constructing a shooting range at the foot of Avi 
Vasqui, and thus interfering with the exercise of our traditional 
religion, does not significantly impact the quality of the human 
environment. We find this deeply insulting.
    And what keeps BLM from exploring alternative sites for the 
shooting range? The primary impediment to considering alternatives is 
the insistence by the proponent, the Arizona Fish and Game Department, 
that its facility be within fifteen miles and a ten minute drive from 
Bullhead City.
    We respectfully suggest that Congress should not allow BLM to 
substantially burden the religious practices of a federally recognized 
Indian tribe for the convenience of shooters in the vicinity of 
Bullhead City. The Mojave people have a right to practice the religion 
of our ancestors; we ask that Congress not take it away. In the past, 
the U.S. government tried to make our grandparents give up their 
religion. Today we are holding on, but we continue to have to fight to 
protect our sacred space. No one would approve continuous gunfire 
around a church; how can the U.S. Government approve of it in our 
sacred space? Our feelings of reverence at Avi Vasqui are precious and 
connect us to the higher power. Others would not like it if we tribal 
folks started shooting off our guns around a church during the singing 
of hymns. That's sacrilegious. The same goes for others directing such 
acts toward us.
    Please do not allow BLM to commit such sacrilege; please do not 
approve H.R. 2100.
                                 ______
                                 
    Mr. Grijalva. Thank you. Let me now ask Mr. Robert 
Woodhouse, Vice-Chairman of the Arizona Game and Fish 
Commission, for his comments, and welcome, sir.

STATEMENT OF ROBERT WOODHOUSE, VICE-CHAIRMAN, ARIZONA GAME AND 
               FISH COMMISSION, PHOENIX, ARIZONA

    Mr. Woodhouse. Thank you, Chairman Grijalva. Mr. Chairman, 
and Members of the Subcommittee, I am Robert Woodhouse, Vice 
Chairman of the Arizona Game and Fish Commission. Thank you for 
the opportunity to testify before you today regarding 
Congressman Trent Franks' H.R. 2100, which would provide the 
much needed land for the establishment of a public shooting 
facility in Mohave County, Arizona.
    The Arizona Game and Fish Commission supports H.R. 2100 in 
its committed goal of safe recreational shooting in Arizona. 
Recreational shooting and sport hunting have always been a 
family oriented activity in Arizona.
    As the population of the State continues to grow the number 
of citizens engaging in recreational shooting at formal and 
informal shooting ranges, or dispersed shooting areas, has 
increased significantly.
    The population of Arizona has more than doubled, from two-
and-a-half million in 1997, to over six million today. Studies 
show that 20 percent of Arizona residents participate in 
recreational shooting activities. Outdoor recreation, as with 
multiple interests, are competing to use public lands adjacent 
to large metropolitan areas, as well as expanding rural 
communities.
    As a result of this increased use, unresolved conflicts 
have arisen between public agencies, landowners, recreational 
shooters, and other recreationists. There are population 
centers in Arizona that currently do not have reasonable access 
to a public shooting range.
    As a result the impact of dispersed shooting and associated 
issues such as littering, shared use of increasingly scarce 
public lands, and resource damage continue to represent 
challenges.
    The Arizona Game and Fish Commission promotes and supports 
the development of safe accessible targets sportshooting 
facilities by taking a leadership role in partnering with 
ranges, industry, and communities.
    Additionally, the Commission provides statewide range 
development assistance through a variety of technical, 
educational, and financial resources consistent with its goal 
to preserve shooting opportunities for present and future 
generations.
    The Commission currently owns and operates five shooting 
ranges in Arizona, and has supported countless others through 
the development grants and technical and engineering support.
    The Commission is committed to continued support for 
shooting range development in Arizona. With a major population 
increase in the tri-state area, members of the sports shooting 
community have expressed a strong interest in developing a new 
multi-purpose shooting facility to replace the one that was 
closed in 1998, in large part due to encroachment.
    At present, due to the lack of a formal shooting facility, 
shooters have been forced to utilize makeshift shooting 
locations, which has become a significant source of concern for 
public and private landowners, as well as other outdoor 
recreationalists. H.R. 2100 would help to mitigate these 
issues.
    To accommodate the needs of the shooting community, various 
shooting disciplines, hunter education, and law enforcement 
training needs, the Commission proposed the development of a 
formal shooting complex in the tri-state area.
    The complex would include various rifle, pistol, and 
shotgun ranges, a hunter education range, and law enforcement 
training area. Since the closure of the only public shooting 
range in the area, the Commission has worked with the Bureau of 
Land Management and the local shooting community for the past 
12 years to identify a site for a new range.
    The Commission is encouraged by the BLM's recently issued 
record of decision authorizing the range. However, questions do 
remain regarding some of the stipulations included. The main 
questions are the range footprint, noise monitoring, and range 
expansion.
    The Commission looks forward to working with the BLM to 
address these concerns. H.R. 2100 would address these issues 
and expedite the development process. If this legislation is 
passed the Commission has the financial resources available to 
begin range development immediately.
    The Commission supports the proposed legislation by 
Congressman Franks regarding the conveyance of identified BLM 
lands to the Commission for the development of the tri-state 
shooting range.
    If the proposed legislation is passed the Commission would 
continue to work with all interested parties to develop the 
range in the most professional manner possible, incorporating 
environmental management, noise abatement, and cultural 
considerations.
    Again, on behalf of the Arizona Game and Fish Commission, I 
would like to thank you for the opportunity to address your 
Committee in support of Congressman Franks' H.R. 2100. I am 
happy to respond to any questions that you might have.
    [The prepared statement of Mr. Woodhouse follows:]

           Statement of Robert R. Woodhouse, Vice-Chairman, 
             Arizona Game and Fish Commission, on H.R. 2100

    Mr. Chairman and members of the subcommittee, I am Robbie 
Woodhouse, Vice-Chairman of the Arizona Game and Fish Commission. Thank 
you for the opportunity to testify before you today regarding 
Congressman Trent Frank's H.R. 2100 which would provide the much needed 
land for the establishment of a public shooting facility in Mohave 
County, Arizona. The Arizona Game and Fish Commission supports H.R. 
2100 and its committed goal of safe recreational shooting in Arizona.
    Recreational shooting and sport hunting have always been a family-
oriented outdoor activity in Arizona. As the population of the state 
continues to grow, the number of citizens engaging in recreational 
shooting at formal and informal shooting ranges or dispersed shooting 
areas has increased significantly. The population of Arizona has more 
than doubled from 2.5 million in 1997 to over six million today. 
Studies show that 20% of Arizona residents participate in recreational 
shooting activities. Outdoor recreationists with multiple interests are 
competing to use public lands adjacent to large metropolitan areas, as 
well as expanding rural communities. As a result of this increased use, 
unresolved conflicts have arisen between public agencies, landowners, 
recreational shooters and other recreationists. There are population 
centers in Arizona that currently do not have reasonable access to a 
public shooting range. As a result, the impact of dispersed shooting 
and associated issues such as littering, shared use of increasingly 
scarce public lands and resource damage continue to represent 
challenges.
    The Arizona Game and Fish Commission (Commission) promotes and 
supports the development of safe, accessible target and sport-shooting 
facilities by taking a leadership role in partnering with ranges, 
industry, and communities. Additionally, the Commission provides 
statewide range development assistance through a variety of technical, 
educational and financial resources consistent with its goal to 
preserve shooting opportunities for present and future generations.
    The Commission currently owns and operates five shooting ranges in 
Arizona and has supported countless others through development grants, 
and technical and engineering support. The Commission is committed to 
its continued support for shooting range development in Arizona.
    With the major population increase in the tri-state (Arizona, 
Nevada and California) area, members of the sport shooting community 
have expressed a strong interest in developing a new multi-purpose 
shooting facility to replace the one that was closed in 1998 due in 
large part to encroachment. At present, due to the lack of a formal 
shooting facility, shooters have been forced to utilize makeshift 
shooting locations which, has become a significant source of concern 
for public and private landowners, as well as, other outdoor 
recreationists. H.R. 2100 would help mitigate these issues.
    To accommodate the needs of the shooting community including 
various shooting disciplines, hunter education and law enforcement 
training needs, the Commission proposed the development of a formal 
shooting complex in the Tri-State area. The complex would include 
various rifle, pistol and shotgun ranges, a hunter education range and 
a law enforcement training area.
    Since the closure of the only public shooting range in the area, 
the Commission has worked with the Bureau of Land Management (BLM) and 
the local shooting community for the past 12 years to identify a new 
site for a range. The Commission is encouraged by the BLM's recently 
issued Record of Decision (ROD) authorizing the range, however; 
questions remain regarding some of the stipulations included. The main 
questions are the range foot print, noise monitoring and future range 
expansion. The Commission looks forward to working with the BLM to 
address these concerns. H.R. 2100 would address these issues and 
expedite the development process. If this legislation is passed, the 
Commission has the financial resources available to begin range 
development immediately.
    The Commission supports the proposed legislation by Congressmen 
Franks, regarding the conveyance of the identified BLM lands to the 
Commission for the development of the Tri-State Shooting range. If the 
proposed legislation is passed the Commission would continue to work 
with all interested parties to develop the range in the most 
professional manner possible incorporating environmental management, 
noise abatement and cultural considerations.
    Again, on behalf of the Arizona Game and Fish Commission I would 
like to thank you for the opportunity to address your committee in 
support of Congressman Franks' H.R. 2100. I am happy to respond to any 
questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, sir. Let me begin if I 
may, Mr. Vice Chairman, with a couple of questions. In your 
testimony if I am not mistaken, and if I am, please correct me, 
your testimony does not mention the concerns of the tribes that 
we heard today.
    Can you tell me what position the agency that you represent 
has with regards to the concerns raised by the Fort Mojave 
Tribe and the Hualapai?
    Mr. Woodhouse. Mr. Chairman, yes, I would like to respond 
to that. I did briefly at the end of my testimony there talk 
about that we are conscious and do intend to work 
professionally with all parties, including cultural issues, 
which obviously are the issues that the tribal members bring 
forth this morning.
    And I can submit to you also, Mr. Chairman, and Members of 
the Committee, our Commission and the Arizona Game and Fish 
Department, do work with lots of tribal entities in the State 
of Arizona, and we look forward to being a good neighbor and 
cooperate with the tribe.
    Mr. Grijalva. A follow-up to something else that you 
mentioned in your testimony that indicates an objection on the 
part of your agency to some of the requirements and 
stipulations that were included in the BLM record of decision 
to mitigate some of the impacts on native land.
    Can you explain to the Committee what mitigation 
requirements the agency feels are not necessary or unwarranted?
    Mr. Woodhouse. Mr. Chairman, yes, sir, I can respond to 
that, and Members of the Committee. We did have some issues as 
I had outlined about the footprint, noise monitoring, and 
future range expansion. There have been letters back and forth 
between our Deputy Director, Gary Hovatter, and the Bureau of 
Land Management, and we are working on those issues.
    We are satisfied at this time that we are in good shape on 
that, and have a working relationship with BLM that also 
addresses the sensitiveness of the cultural issues that are 
brought up.
    It talks about coordinating with the tribes on times that 
they would have religious activities there, ceremonies, and 
whatever their cultural needs would be. It has been thoroughly 
addressed, Mr. Chairman.
    Mr. Grijalva. I think these questions are both for Ms. 
Jackson-Kelly and Ms. Otero. The BLM states that both of your 
tribes have maintained the position that there is no place 
within the 140 miles of the Mohave Valley that could be 
suitable for a shooting range. First of all, if that is true, 
could you explain to the Committee why?
    Ms. Otero. Mr. Chairman, 140 miles? I am not aware of that 
being stated. My guess is that is an interpretation of how we 
express the landscape and the greater vastness of the cultural 
area, in terms of the religion and the relationship that we 
have with the Avi Vasqui and other points in the valley.
    And so in identifying that, we expressed the best that we 
can in sharing with them our cultural significance of these 
places. So it goes beyond the landscape of the valley. It goes 
beyond the mountain ranges.
    So if that is an interpretation of how the mileage is 
placed as a marker, then I am not familiar with that. I know 
that within the 140 miles that exists that there are two 
shooting ranges, one just over the Black Mountain Range, which 
is the seven mile range.
    And we brought that out as a possible alternative for which 
that range could be expanded, but we also learned that it was 
also located near a Hualapai grave site as well. So when we 
first identified the possibility of expanding that range 
because the route of S.R. 93 was upgraded and expanded that 
gave citizens the opportunity to perhaps travel that route.
    But yet 140 acres? I am not aware of that number of miles 
being placed. So I think that is an interpretation of how we 
describe our land base and the greatest significance of the 
area.
    Mr. Grijalva. Thank you. We have been talking about the 
record of decision, the BLM. Have they made stipulations on how 
to mitigate damage done to the area, to sacred lands? In your 
opinion, do the stipulations in this proposal--and this is to 
the both of you--do these stipulations address the tribes' 
concerns with the shooting range? Why or why not?
    Ms. Otero. Mr. Chairman, I will answer that as well. No, 
they don't. They don't address it to the extent that we feel 
that we are comfortable with that at all. How do you mitigate 
spiritual and religious values? That has been our point from 
the beginning. How do you do that?
    Fencing is not appropriate. You look at it only as a 
physical structure there, a physical essence of that. We don't 
see it just of that nature. It is beyond that. It is the values 
and at the heart of which we relate to in our way of life, in 
our religion, and so mitigating that was not appropriate in 
what was outlined.
    Besides that the tribe did not have full input. We 
expressed our concerns about the area, but I think it was taken 
that we were in agreement, but that was not the case with these 
mitigation measures that were proposed. They were more or less 
just placed upon us that we should accept it, but we have not. 
These go against what we have been saying.
    Mr. Grijalva. You were advised of the stipulations, but 
there was no consultation?
    Ms. Otero. Not to the full extent that we could negotiate, 
right. And as it is, negotiation is not applicable to these 
spiritual values.
    Ms. Jackson-Kelly. I would also like to add for the 
Hualapai Tribe that we were not consulted about these 
mitigation measures.
    Mr. Grijalva. Thank you to all three of you. I appreciate 
it, and let me now turn to Ranking Member Brown for any 
questions or comments that he may have.
    Mr. Brown. Thank you, Mr. Chairman. I would like to ask you 
all, the three of you, just basically a yes or no answer, and 
if you would, all three answer. Isn't this bill pretty much a 
moot point, that this shooting range--that the decision has 
already been made, and that it is going to be located in this 
area? Ms. Jackson-Kelly.
    Ms. Jackson-Kelly. If I could speak. I see this bill as 
authorizing the Secretary of the Interior to convey the 350 
acres from BLM to the Arizona State Game and Fish Department, 
and that would be the final portion of steps to be taken for 
Arizona Game and Fish to build the facilities.
    Mr. Brown. But hasn't that decision already been made?
    Ms. Jackson-Kelly. There has been a record of decision in 
an EA that does say that. If the power is within the State 
Director of the BLM in the State of Arizona, then that is where 
it is.
    Mr. Brown. OK. By the way, I want to congratulate. I am a 
big game hunter, and I want to congratulate the Hualapai for 
the wild game management that you guys do there on your tribal 
properties, and I have long time longed and hoped for many 
years that I would have enough money to come shoot and go 
hunting for wild sheep. Primarily wild sheep, but also elk in 
your area.
    So I congratulate you for your wonderful wildlife 
management there.
    Ms. Jackson-Kelly. Thank you.
    Mr. Brown. Let me go to the Fort Mojave Tribe 
representative. In your opinion is this a moot point?
    Ms. Otero. I express the same sentiment as the Hualapai 
have as well. How it is outlaid, it is giving Congress that 
authority as well to have the transfer or the input to have the 
transfer.
    Mr. Grijalva. But the decision has already been made; is 
that correct?
    Ms. Otero. Yes.
    Mr. Brown. That is what I got from the National Park 
Service testimony that came prior to you all. And from the 
Arizona Game and Fish Commission?
    Mr. Woodhouse. Mr. Chairman and Congressman Brown, I do not 
believe that H.R. 2100 is a moot point. H.R. 2100 is what 
brings the three of us here obviously with differing viewpoints 
on this proposed transfer of this property for this site, sir.
    So I do believe that it does allow involvement for these 
two ladies from Northwestern Arizona, and for myself to be here 
from the Arizona Game and Fish Commission, to express our 
desires to this Committee about this proposed bill.
    Mr. Brown. Well, I appreciate you all coming, and I 
appreciate you all spending your resources and your valuable 
time coming. What is the distance from the bluff or the 
mountain to the range, or the Butte? Any one of the three of 
you. How far is it?
    Ms. Otero. Within two miles.
    Mr. Brown. How far?
    Ms. Otero. Within two miles.
    Mr. Brown. Two?
    Ms. Otero. Yes.
    Mr. Brown. I am sorry. I am a hunter and I can't hear very 
well.
    Ms. Otero. I am sorry. Yes, within two miles.
    Mr. Brown. OK. Would the tribes accept the shooting range 
with proper sound buffers and other things? So just the fact 
that there is a range there? It does not matter what they would 
do, what the Arizona Game and Fish would do, period. You just 
don't want the range there, no matter what they do; is that 
correct? That is what I am getting from you guys.
    Ms. Otero. That is correct. We stated that for alternatives 
for looking for a shooting range that the potential is there, 
but for the location near Avi Vasqui, it is not.
    Mr. Brown. OK.
    Mr. Woodhouse. Mr. Chairman, may I respond to that?
    Mr. Brown. Yes, I was just fixing to ask you. Yes.
    Mr. Woodhouse. Mr. Chairman and Congressman Brown, 
Congressman Brown, the sound studies that were done--and I 
would concur with the lady that it is approximately two miles, 
plus or minus, from the proposed site to Boundary Cone Butte.
    The sound studies that have been done through the EA 
process and through the record of decision, and all the studies 
that have gone on for many, many years, over a decade now, have 
been exhaustive to get us back to this site.
    But those sound studies showed--and I do not have the 
decibel levels with me currently, but were minimal at Boundary 
Cone. Were they audible? Yes, but minimally. And I would like 
to submit to the Committee, Congressman Brown, that those sound 
studies that were done are out there obviously in the desert, 
with no kinds of berms in place, no sound defusing types of 
things such as berms or backstops.
    And I would like to submit to you that if this project goes 
forward, all the ranges that the Commission participates in 
Arizona are done in conjunction and in guidelines with the 
National Rifle Association guidelines on how to build safety 
berms, and also those are not just safety berms.
    I believe as you know as a hunter and an outdoorsman 
obviously, those are safety berms also to defuse and try to 
trap up as much of that sound within the shooting range area as 
is possible, and they are quite effective.
    Mr. Brown. Well, I understand that, and I appreciate your 
testimony regarding that. I have been very much involved in 
these kinds of issues, and I know that at a two mile distance 
the sound impact, and any other factors, the viewscape, et 
cetera, can be essentially mitigated totally, and I appreciate 
that.
    And I want to congratulate the Arizona Game and Fish. I 
just sent in my permit applications and I hope that one of 
these days I will draw a permit to come. I can't afford to go 
to the Hualapai Indian Reservation to pay for a sheep hunt 
there. But, anyway, my time is up and I thank you all for 
coming, and I appreciate this.
    And I understand both tribal concerns, and I understand 
your resistance to having this range put there. I really do. 
And I understand that it just being there is the thing that you 
are mostly against from your own testimony, and I just want to 
thank you all for coming, and Mr. Chairman, I yield back. Thank 
you.
    Mr. Grijalva. Mr. Kildee, any comments?
    Mr. Kildee. I just want to thank you for having this 
hearing. I think it is very important, and I appreciate the 
testimony of the witnesses, and again, thank you, Mr. Chairman.
    Mr. Grijalva. Thank you, sir, and let me just thank the 
panel. I appreciate it. And the issue of a moot point is a 
valid question, but this was a request presented to our staff 
on something that needed to be heard, and now that it is heard, 
I hope that we have all learned a lot.
    And part of it has been the process. I have grave concerns 
about the process, and grave concerns about the consultation 
process that is required with native peoples, and their 
representatives.
    And I think something was said earlier. Today, we have some 
wonderful pieces of legislation, the missions, and to protect 
that legacy in the west, and that includes in my part of the 
world, San Javier, Keno, all those, and the mission 
preservation is important, and they are still vibrant parishes 
that continue to hold services.
    And we are talking about the Buffalo Soldiers and 
revitalizing, and renewing, and understanding of what that part 
of our Nation's history is, and should be respected and 
acknowledged.
    And today we are talking about in this a shooting range, 
and while that is not a contradiction, it is important that the 
two witnesses that came from the tribes got heard, because they 
talked about something equally as important, and that is an 
understanding of respect for the sacredness of land and for 
traditions.
    And so for that I thank you, and it certainly has been 
something that I have learned a great deal about, and I 
appreciate it a lot. With that, let me ask the next panel up.
    [Pause.]
    Mr. Grijalva. Thank you. Let me welcome the panelists, and 
I appreciate your patience, and let me begin with Ms. Brenda 
Small, H.R. 3425, Prudential Carruthers Realtors, Washington, 
D.C. Welcome, and we look forward to your comments on Ms. 
Norton's legislation. Thank you.

  STATEMENT OF BRENDA SMALL, PRUDENTIAL CARRUTHERS REALTORS, 
                        WASHINGTON, D.C.

    Ms. Small. Good morning, and thank you. I am Brenda Small, 
President of the Washington, D.C. Association of Realtors. I am 
speaking today on behalf of the National Association of 
Realtors, NAR, which represents 1.2 million Realtors across the 
country.
    Engaged in all aspects of the real estate industry, NAR's 
members strongly support H.R. 3425, which would authorize the 
Fair Housing Commemorative Foundation to establish a 
commemorative work celebrating the Fair Housing Act of 1968.
    Realtors realize that Washington, D.C., has so much to 
offer historically and culturally, and our members are proud 
that our Washington, D.C., headquarters is right here in close 
proximity to many of these monuments to our Nation's history 
and ideals.
    You know, I could not testify here today without honestly 
acknowledging that like many Americans, many of our Realtor 
associations in the past have not always accepted or reflected 
the mosaic blend of America's diversity.
    So I am especially proud to be here today to testify on the 
importance of diversity in home ownership in America, and equal 
access to rental housing, as well as to celebrate the great 
progress that this nation and the real estate industry has made 
in the years since the passage of the Fair Housing Act.
    NAR and its affiliated State and local associations today 
also reflect and represent a tapestry of different faces, 
different places, ideas, intellects, talents, and passions.
    And today I can proudly say that the neighborhoods where we 
live and work, and the consumers that we serve, are just as 
diverse. So to that end, we support the creation of a memorable 
piece of art, a monument, to the Fair Housing Act, which has 
benefitted all Americans.
    We believe that art is inspirational, and art is culturally 
rich and culturally enriches. Art is multilingual, yet speaks 
with one voice to touch many. Art represents the passions and 
emotions embodied in the subject which it celebrates.
    It blends and flows. It respects and appreciates, and it 
understands and cooperates. A Fair Housing monument in this 
city would represent just that. The Fair Housing Act ensures 
that regardless of race or color, national origin, religion, 
gender, familial status, or disability, we all have equal 
access to housing, and the right to pursue the American dream.
    Realtors help put new faces in homes throughout this 
nation, faces that do represent the mosaic of America, and what 
we do for a living is create opportunities for home ownership, 
and equity building for millions of Americans.
    The Fair Housing Act is a solid foundation that helps us 
protect private property rights, provides equal access to 
rental housing, and home ownership opportunities, and sure 
compliance with the law in both real estate and mortgage 
activities.
    And furthers our goals for increased, affordable, and 
sustainable home ownership within the reach of all Americans. 
This foundation of protection and opportunity has also served 
to create more vibrant communities, where homeowners are more 
civilly involved.
    Children excel in the classroom, and our American culture 
is enhanced by diversified neighborhoods, and while we have 
accomplished much in building these foundations, we still have 
work to do, and we still have education to do.
    I have experienced race discrimination firsthand during my 
time in the real estate profession. Sometimes direct, and often 
times subtle, and all the times disturbing. It comes in the 
form of a rejection of my services as a real estate 
professional, and even on occasions where contract offers were 
rejected based on the assumption of race of the client being 
represented.
    The Fair Housing Act protects my right to practice my 
profession in three significant ways. First, it prohibits my 
exclusion on the basis of race, color, national origin, 
religion, sex, familial status, or disability, in organizations 
of real estate professionals.
    The National Association of Realtors affirmatively protects 
my right to be a Realtor, and prohibits actions that might 
exclude me on the basis of these characteristics.
    Second, the Fair Housing Act protects me from retaliation 
should I exercise my rights or help anyone else exercise their 
rights under the Fair Housing Act; and even today, there are 
incidents of bigoted neighbors and minority buyers who try to 
buy property.
    Third, every time a buyer or seller I am working with is a 
victim of housing discrimination, everyone loses a bit of 
dignity and respect, and it continues to reinforce the need for 
the focus on and enforcement of fair housing.
    Thus, what better message to send to all Americans than to 
establish a permanent monument dedicated to fair housing right 
here in the Nation's capital. A fixed reminder, both now and in 
the future, that the American dream of home ownership is and 
should be available to all Americans.
    And while we have made great strides and accomplished much 
to promote and foster fair housing, there is more to do to 
inspire us and future generations to be vigilant in protecting 
one of our most basic rights, the rights to property and 
housing.
    We want to see the hard run struggles to make fair housing 
a reality, and a positive influence that fair housing has had 
on our society commemorated by the establishment of a fair 
housing monument in this city, and urge you to support H.R. 
3425. Thank you for the opportunity to testify in support of 
this worthy endeavor.
    [The prepared statement of Ms. Small follows:]

  Statement of Brenda Small, President, Washington, DC Association of 
REALTORS, on Behalf of The National Association of REALTORS, on H.R. 
                                  3425

    Good Morning, I am Brenda Small, President of the Washington, DC 
Association of REALTORS. I am speaking today on behalf of the National 
Association of REALTORS (NAR), which represents 1.2 million REALTORS 
across the country. Engaged in all aspects of the real estate industry, 
NAR's members strongly support H.R. 3425, which would authorize the 
Fair Housing Commemorative Foundation to establish a commemorative work 
celebrating the Fair Housing Act of 1968.
    Washington, DC has so much to offer, historically and culturally. 
Our members are proud that our Washington, DC, headquarters, is right 
here in close proximity to many of these monuments to our nation's 
history and ideals.
    I could not testify here today without honestly acknowledging that 
like many Americans, many of our REALTOR associations in the past have 
not always accepted or reflected the mosaic blend of America's 
diversity.
    So I am especially proud to be here today to testify on the 
importance of diversity in homeownership in America, and equal access 
to rental housing, as well as to celebrate the great progress that this 
nation and the real estate industry has made in the years since the 
passage of the Fair Housing Act.
    NAR and its affiliated state and local associations today also 
reflect and represent a tapestry of different faces, different places, 
ideas, talents, intellects, interests and passions. Today, I can 
proudly say that the neighborhoods where we live and work and the 
consumers we serve are just as diverse.
    To that end, we support the creation of a memorable piece of art, a 
Monument to the Fair Housing Act, which has benefited all Americans.
    The Fair Housing Act ensures that regardless of race or color, 
national origin, religion, gender, familial status, or disability, we 
all have equal access to housing and the right to pursue the American 
Dream.
    REALTORS help put new faces in homes throughout this nation, faces 
that represent the mosaic of America. What we do for a living is create 
opportunities for homeownership and equity building for millions of 
Americans.
    The Fair Housing Act is the solid foundation that helps us protect 
private property rights, provide equal access to rental housing and 
homeownership opportunities, ensure compliance with the law in real 
estate and mortgage activities, and further our goals for increased, 
affordable, and sustainable homeownership within the reach of all 
Americans.
    This foundation of protection and opportunity has also served to 
create more vibrant communities where homeowners are more civically 
involved, children excel in the classroom, and our American culture is 
enhanced by diversified neighborhoods.
    While we have accomplished much in building these foundations, we 
still have work to do. We still have education to do. I have 
experienced race discrimination firsthand during my time in the real 
estate profession, sometimes direct, often times subtle, and always 
disturbing. It comes in the form of the rejection of my services as a 
real estate professional, and even occasions where contract offers were 
rejected based on the assumption of race of the client being 
represented.
    The Fair Housing Act protects my right to practice my profession in 
three significant ways:
    First, it prohibits my exclusion on the basis of race, color, 
national origin, religion, sex, familial status, or disability in 
organizations of real estate professionals. The National Association of 
REALTORS affirmatively protects my right to be a REALTOR and 
prohibits actions that might exclude me on the basis of these 
characteristics.
    Second, the Fair Housing Act protects me from retaliation should I 
exercise my rights or help anyone else exercise their rights under the 
Fair Housing Act. Even today, there are incidents of bigoted neighbors 
threatening REALTORS and minority buyers who try to buy property.
    Third, every time a buyer or seller I am working with is a victim 
of housing discrimination--whether for race, color, national origin, 
religion, sex, familial status, or disability--everyone loses a bit of 
dignity and respect, and it continues to reinforce the need for the 
focus on and enforcement of fair housing.
    Thus, what better message to send to all Americans than to 
establish a permanent monument dedicated to Fair Housing right here in 
the nation's Capitol: A fixed reminder, both now and in the future, 
that the American Dream of Homeownership is, and should be available to 
all Americans.
    The progress we have made and the work remaining was and will be 
accomplished by many Americans, from those who bravely exercised their 
fair housing rights in the face of violence, to the community voices 
for fair housing, to REALTORS who challenged practices and helped 
people find the housing they needed.
    While we have made great strides and accomplished much to promote 
and foster fair housing, there is more to do to inspire us and future 
generations to be vigilant in protecting some of our most basic rights: 
the rights to property and housing. We want to see the hard won 
struggles to make fair housing a reality and the positive influence 
fair housing has had on our society commemorated by the establishment 
of a Fair Housing Monument in this city and urge you to support H.R. 
3425.
    Thank you for the opportunity to testify in support of this worthy 
endeavor.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. Let me now introduce Ms. 
Susan Chandoha, and if I misstated your name, I apologize, who 
is the Executive Director of Los Compadres de San Antonio 
Missions, San Antonio, Texas. Welcome.

STATEMENT OF SUSAN CHANDOHA, EXECUTIVE DIRECTOR, LOS COMPADRES 
          DE SAN ANTONIO MISSIONS, SAN ANTONIO, TEXAS

    Ms. Chandoha. Good morning, Mr. Chairman, and Ranking 
Member Pro Temp Brown, and Subcommittee Members. It is an honor 
and a privilege to be here in this beautiful capital of our 
wonderful country to provide testimony on H.R. 4438. With me, I 
would like to introduce Sue Ann Garcia, Chairman of the Board 
of Los Compadres; her husband, J.A. Garcia, who is a county 
judge of Kennedy County in South Texas; Betty Bueche, who is 
representing Bexar County Judge Nelson Wolf, and Scott Bentley, 
Superintendent of the San Antonio Missions National Historical 
Park.
    Los Compadres is the friend's group to this national park 
in San Antonio. We are comprised of a large group of caring 
individuals and businesses. We cherish the historical resources 
in San Antonio.
    As such our organization since 1983, when we were 
chartered, has raised over 54 million dollars on behalf of the 
San Antonio Missions National Historical Park. Congressman Ciro 
Rodriguez, a longtime devotee to our historical missions, who 
was raised in the shadow of San Jose, and attends religious 
services there on Sundays when he is back in the district, 
sponsored this bill, along with the wholehearted supported of 
our three other Bexar County Congressman, Congressman Henry 
Cuellar, Congressman Lamar Smith, and Congressman Charles 
Gonzalez.
    Few can question the national and international 
significance of the San Antonio Missions. They comprise the 
single largest concentration of Spanish colonial resources in 
the United States, and include the only Eighteenth Century 
continuously functioning dam, irrigation system, and aqueduct 
on the continent.
    These missions represent the finest remaining monuments of 
Spain's frontier ingenuity in the country, and they are living 
testimony to the pioneering spirit that established the 
Southwest and gave rise to our country's agricultural and 
ranching industries.
    By way of background, some 90 years ago the citizens of San 
Antonio began their work to acquire the protection of the 
National Park Service. When they finally became a national park 
in 1978, the boundary that was drawn by Congress was 
multifaceted due to the nature of the separate areas of each 
mission. This bill will help address some of these issues.
    The boundary adjustment portion of the bill, if passed, 
will add 151 acres to the park. In actuality, 118 of this is 
already owned by the park, or will soon be donated and 
transferred through land swap.
    H.R. 4438 also calls for a new study to determine whether 
additional Spanish colonial resources in Bexar and Wilson 
Counties should be incorporated within the missions boundaries.
    Historically, the missions had strong ties with the San 
Antonio River as each mission had its own irrigation system 
that depended on the river for its water. Unfortunately, this 
historic connection was broken with flood control work in the 
1960s.
    This is something that is extremely important. In 1975, 
when the citizens were working to bring the protection of the 
Park Service to the missions, a feasibility study was done by 
the National Park Service.
    Five separate options for a national park were developed. 
Unfortunately, all of those options were thrown out, but it is 
very important right now to understand that every landowner 
within those five proposed boundaries at that time was 
supported.
    The citizens, even though we didn't get the park that we 
wanted, the citizens of San Antonio continued working to 
protect the resources, and coming up with ideas on how this 
would work.
    So they voted a venue tax and raised $271 million to 
restore the southern segment of the San Antonio River. This 
work will be completed in 2013. We have worked hard for this, 
and we feel that a new boundary study to review some of these 
early options that would contain, and that would bring in all 
of these wonderful resources that were left out.
    Most of this land is within public ownership, and the city, 
the county, and in Wilson County, and the individual 
landowners, are all willing to work on a new study. The third 
segment portion of this bill would authorize the Park Service 
to enter into a lease agreement with a nonprofit for a new 
headquarters building.
    Obviously, we want that nonprofit to be Los Compadres. We 
have worked with the city for two years on acquiring the City-
acquired 26 acres adjacent to Mission San Jose, the queen of 
the missions. They are building a new library.
    This 26 acres has potential for an incredible educational 
facility. We would like to build the National Park Service 
headquarters, lease it to them, and once the building is paid 
for, all lease funds that we would receive would be put into an 
endowment that, in-turn, would raise funds to give back to the 
National Park Service for preservation, restoration, 
development, and educational projects. It is a win-win 
situation.
    Mr. Chairman, and Members of the Subcommittee, we feel very 
strongly that since the study of 1975 that we have satisfied 
our early promise to Congress, who created the park in 1978, 
that we would support it.
    We are now asking you to assist in meeting our joint 
commitment and our needs for the future. We look forward to a 
very continued successful relationship with you and the 
National Park Service. Thank you for your consideration.
    [The prepared statement of Ms. Chandoha follows:]

 Statement of Susan Chandoha, Executive Director, Los Compadres de San 
        Antonio Missions National Historical Park, on H.R. 4438

    Good Morning, Mr. Chairman and members of the sub-committee.
    My name is Susan Chandoha and I am the Executive Director of Los 
Compadres, the non-profit Friends' group to the San Antonio Missions 
National Historical Park. Joining me today, are Sue Ann Garcia, 
Chairman of the Board of Los Compadres, and her husband, J.A., Betty 
Bueche, Facilities Division Manager of Bexar County, and Scott Bentley, 
Superintendent of our national historical park.
    I thank you for the opportunity to appear before you in support of 
H.R. 4438, introduced by Congressman Ciro Rodriguez and co-sponsored by 
Congressman Henry Cuellar, Congressman Charles Gonzalez and Congressman 
Lamar Smith. This legislation will do three things:
    1.  Complete an immediate boundary adjustment that brings in 
approximately 151 acres of lands owned by the park and lands actively 
being acquired by the park
    2.  Direct the National Park Service to conduct a study of lands 
within Bexar and Wilson Counties, Texas to identify lands that would be 
suitable for inclusion within this park's boundaries
    3.  Allow the Secretary of the Interior to lease its headquarters, 
maintenance, research and educational space from a non-profit or 
government agencies
    Few can question the national and international significance of the 
San Antonio Missions. They comprise the single largest concentration of 
Spanish Colonial resources in the United States and include the only 
18th century continuously-functioning dam, irrigation system and 
aqueduct on the continent. These missions represent the finest 
remaining monuments of Spain's frontier ingenuity in the country. The 
missions are living testimony to the pioneering spirit that established 
the Southwest and gave rise to our country's agricultural and ranching 
industries. As such, they have been placed on the United States 
tentative list for nomination as a World Heritage site.
    By way of background, some 90 years ago the citizens of San Antonio 
began their work to acquire the protection of the National Park Service 
for its most valued historic resources. Our national park is based upon 
a unique set of cooperative agreements under which it operates in 
conjunction with local and state governments, the Catholic Archdiocese 
and the private sector. Very few national parks receive such total 
support from both the private and public sectors as does our missions' 
park.
    When our missions became a national park, the boundary that was 
drawn by Congress was multifaceted due to the nature of the separate 
areas of each mission and related historic sites coupled with the 
ownership of properties by public and private entities within the 
boundary. Some adjustments were made in 1990. The most important being 
the inclusion of the Rancho de las Cabras in Wilson County. This was 
the working ranch for Mission Espada and contains the only extant 
remains of a Spanish colonial ranch in the entire country.
    Today the park consists of 10 diverse, significant cultural sites 
contained within 813 acres of historic farmland and archaeologically 
sensitive areas. These sites include Missions Concepcion, San Jose, San 
Juan and Espada; the Espada Dam, Espada Aqueduct and Espada Acequia or 
irrigation ditch, the San Juan Acequia; and the Rancho de las Cabras. 
Mission Concepcion and the Espada Aqueduct have ``landmark'' status. 
However, many additional Spanish colonial resources in both counties 
still remain outside the park boundary without adequate protection.
    The boundary adjustment portion of this bill, if passed, will add 
151 acres to the park. In actuality, 118 acres of this is owned by the 
park or will soon be donated or transferred to the park through a land 
exchange. The additional 33 acres proposed for addition could also 
possibly be donated, and if not, could cost as much as $3.5 million. 
This will pay for invaluable historical resources, more efficient 
management and enhanced educational opportunities.
    H.R. 4438 also calls for a new study to determine whether 
additional Spanish colonial resources in Bexar and Wilson Counties 
should be incorporated within the missions' park boundary. 
Historically, the missions had strong ties with the San Antonio River 
as each mission had its own irrigation system that depended on the 
river for its water. Unfortunately, this historic connection was broken 
when flood control work on the southern, or mission reach, was done in 
the 1960s.
    The citizens in Bexar County continued their efforts to bring the 
protection of the National Park Service to the missions. In 1975, the 
National Park Service completed a Feasibility Study on this. In this 
study, several different options for the park boundary were proposed 
and they were all based on the San Antonio River. However, none of the 
options were used because the National Park Service felt it would be 
too costly to restore the river's connections to the missions.
    Our citizens did get their dream partially fulfilled when Congress 
created a smaller, but somewhat discontinuous park in 1978. The 
citizens vowed to continue their local support to protect the missions 
and to develop them into America's premier Spanish colonial national 
park. In so doing, they overwhelmingly voted in a local tax that raised 
$271 million to fund the restoration of the mission reach of the San 
Antonio River. The historic connection between the river and the 
missions will be re-established when this work is completed in 2013.
    Bexar and Wilson Counties have worked tirelessly to provide 
enhancements to our park over the years. The dream that started in 1924 
and partially fulfilled in 1978 can now become a reality with the 
authorization of this study. We urge you to direct the National Park 
Service to 1) re-evaluate the addition of lands that meet the criteria 
for inclusion based on the 1975 feasibility study; and 2) evaluate the 
other known Spanish Colonial resources within these two counties that 
meet the criteria for inclusion.
    We do not want to lose historic farmlands and ranch lands to urban 
development, but it is happening. Precious parts of our cultural 
heritage are slipping away. The bells of San Jose, Concepcion, San Juan 
and Espada rang long before the Liberty Bell and we cannot afford to 
lose any more of this history.
    Los Compadres is comprised of individuals and businesses who are 
civic leaders who are passionate about our missions' national park. Los 
Compadres funded the first capital improvements project at the park in 
1987 with the construction of a visitor contact station at Mission 
Concepcion. Los Compadres funded the complete landscaping and tour bus 
drop-off at the federally-funded Visitor Center at Mission San Jose and 
we continue to fund landscaping throughout the park on an annual basis. 
Our non-profit funds 15 to 20 projects each year--critical educational 
and preservation projects that could not be done without our support.
    Los Compadres has worked with the park and the City over the past 
two years to develop property near Mission San Jose. The City purchased 
lands adjacent to the mission and has started construction on a much-
needed library at the site. The development plan also includes the 
construction of a new headquarters facility for the park that would 
contain an archival storage facility for the park's 990,000+ artifacts 
and a research facility. It would also contain space for educational 
programs and community forums.
    Los Compadres would like to construct this facility and lease it to 
the park and HR4438 would allow the National Park Service to do this. 
Once the building was paid for, we would place the lease funds in an 
endowment in which 100% of the proceeds would be donated back to the 
park for preservation, restoration, development and educational 
projects. This is a win-win situation for all.
    We would ask that the language in the bill give the National Park 
Service the authority to lease specifically from Los Compadres. If not 
modified, then the National Park Service would have to advertise the 
project with other non-profits who might be interested in building on 
the property. Or, at least insert the language that specifies a non-
profit contribute, after debt payment, all rental proceeds from the 
lease be donated back to the missions' park.
    Additionally, we would also like to see specific funding for 
several one-time highly specialized National Park Service needs in the 
amount of $5.7 million for specialty equipment, security measures, 
archival storage and access control. Los Compadres' portion of the 
construction cost of the building would be $6 million and we are ready 
to move forward.
    Mr. Chairman and members of the sub-committee, in our opinion Bexar 
and Wilson Counties have satisfied our early promises to Congress to 
support a national park. We are now asking the federal government to 
assist in meeting our joint commitment and needs for the future. We 
look forward to a continued successful relationship with you and the 
National Park Service.
    From a business perspective, I see the San Antonio Missions 
National Historical Park as a significant economic generator for our 
city. Park visitation has increased over 761% since its creation and 
now has over 1.6 million annual visitors. And, as an American and 
Texan, I am committed to the preservation of our cultural heritage. I 
see these missions as more than architectural relics--they are the 
windows to our past and the foundation of our future.
    Thank you for your consideration this morning.
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    Mr. Grijalva. Let me now thank you. Let me ask Geneva 
Brett, who is the Vice President of the Los Banos Buffalo 
Soldiers Association, to begin. Welcome, and I look forward to 
your comments.

 STATEMENT OF GENEVA BRETT, VICE PRESIDENT, LOS BANOS BUFFALO 
          SOLDIERS ASSOCIATION, LOS BANOS, CALIFORNIA

    Ms. Brett. On behalf of every veteran who has ever served 
this great nation, I thank you for the opportunity to testify 
in support of H.R. 4491. My name is Geneva Marie Brett. I am a 
Realtor broker associate, Vice President of the Los Banos 
Buffalo Soldiers Ninth and Tenth Cavalry Association, and 
President of the Los Banos Chamber of Commerce.
    Few Americans are aware that Yosemite, Sequoia, and Kings 
Canyon National Parks, were protected by the United States Army 
from 1899 to 1913. Buffalo Soldiers, African-American 
Cavalrymen, traveled by horseback from the Presidio of San 
Francisco to Sequoia and Yosemite in 1899, 1903, and 1904, to 
work as park protectors.
    These veterans of foreign and domestic wars made 
significant contributions in the development of our nation and 
the National Park System, yet they remain near invisible in the 
pages of American history.
    H.R. 4491 will bring to light this hidden history and 
commemorate the service of pioneers like the remarkable Colonel 
Charles Young, the third black graduate of West Point, and the 
first black acting superintendent of a national park, first 
black military attache, and one of 10 people to ever have a 
memorial service in the Marble Amphitheater in Arlington.
    The Los Banos Buffalo Soldiers Ninth and Tenth Cavalry 
Association was formed to share this American history. At the 
heart of the 18 communities along the trail, we not only 
embrace this important history, but we have become its 
champion, sharing this remarkable story from sea to shining 
sea.
    Our organization is currently planning activities that will 
educate, engage, and inspire current and future generations. To 
show the wide community support for this bill, we brought 
letters from our City Council, Chamber of Commerce, veterans, 
the NAACP, and the public.
    The Los Banos City Council declared 2010 the Year of the 
Veteran. The San Joaquin Valley national cemetery declared it 
the year of the Buffalo Soldier. We are confident that the 
passage of H.R. 4491 will aid local historic preservation, 
commerce, tourism, and education in all 18 communities along 
the trial.
    It is a rare and thrilling opportunity to share this new 
old history of local and national significance. Is it irony or 
perhaps destiny that the Buffalo Soldiers were among the first 
stewards of the little known or understood notion of national 
parks, and now the National Park Service is the steward of the 
fragile and little known history of the Buffalo Soldiers.
    We were not only astonished to learn of the Buffalo 
Soldiers' connection to our community, but also that the 
greatest resource for Buffalo Soldier history is the National 
Park Service.
    H.R. 4491 is necessary and vital because there is nothing 
official in the NPS to commemorate the contributions of these 
veterans. A National Historic Trail makes a statement to future 
generations that this history, their contribution, is important 
to this nation.
    Historical trail status would force academia to pay 
attention to this history, meaning universities to grade 
schools would begin to study and teach the story. If American 
children grow up hearing about the Buffalo Soldiers of the 
Sierra Nevada, then all children and their parents will 
understand that National Parks belong to all Americans.
    In truly honoring the hundredth anniversary of the National 
Park Service, Congress is being challenged with exploring 
visionary strategies to attract and accommodate new visitors 
through innovation and outreach. This historical trail project 
is undeniably such a visionary strategy.
    It provides 18 opportunities to bring the National Parks 
directly to the people in their communities. This trail will 
stimulate those segments of our society who least visit the 
parks, African-Americans and other minorities.
    In her press conference announcing the bill, Congresswoman 
Speier said: ``I have lived my entire life within walking 
distance of El Camino Real, and never knew this chapter of our 
local history. Locally, my hope is that this remarkable story 
is incorporated into lesson plans for children learning about 
our region. We all learned in history class about the Spanish 
missionaries, the 49ers, and the railroad barons. In more 
recent years, educators have stressed the history of local 
Native American tribes who made their home, later would become 
known as the San Francisco Bay. The story of the Buffalo 
Soldiers should be added to that history.'' We concur.
    On behalf of Los Banos, the Buffalo Soldiers, and the 
communities along the route, we wholeheartedly thank 
Congresswoman Speier and the 52 co-sponsors for introducing 
H.R. 4491.
    Neither Congress nor this Subcommittee can change the 
missions of yesterday. However, you can ensure that this 
history is not just preserved, but presented. We are in this 
for the long haul. Working together, we can, and we will, stand 
and salute these remarkable and deserving veterans. And if you 
listen closely, you can hear the thank you from the Buffalo 
Soldiers themselves.
    [The prepared statement of Ms. Brett follows:]

    Statement of Geneva Marie Brett, Realtor/Broker Associate, Vice 
 President, Los Banos Buffalo Soldiers 9th & 10th Cavalry Association, 
       and President, Los Banos Chamber of Commerce, on H.R. 4491

    My name is Geneva Marie Brett; I'm a Realtor/Broker Associate, Vice 
President of the Los Banos Buffalo Soldiers 9th & 10th Cavalry 
Association, President of the Los Banos Chamber of Commerce, and the 
only child of a Vet who died in Korea. On behalf of every Veteran who 
has ever served this great nation, I thank you for the opportunity to 
testify in support of H.R. 4491, The Buffalo Soldiers in the National 
Parks Study Act.
    Few Americans are aware Yosemite, Sequoia & Kings Canyon National 
Parks were protected by the U.S. Army from 1891-1913. Buffalo Soldiers 
(African-American Cavalry and Infantrymen) traveled by horseback from 
the Presidio of San Francisco to Sequoia and Yosemite in 1899, 1903 and 
1904 to work as park protectors. Among other things they built the 
first usable wagon road into Sequoia's Giant Forest, the first trail to 
the top of Mt Whitney, as well as the first museum in the national 
parks.
    These Veterans of Foreign and Domestic Wars made significant 
contributions in the development of our nation and the National Parks 
System yet they remain near invisible in the pages of American history. 
H.R. 4491 will help bring to light this hidden history and commemorate 
the service of pioneers like the remarkable Colonel Charles Young, the 
3rd Black Graduate of West Point, 1st Black Superintendent of a 
National Park, 1st Black Military Attache and 1 of 10 people to ever 
have a memorial service in the marble amphitheater at Arlington.
    The Los Banos Buffalo Soldiers 9th & l0th Cavalry Association was 
formed to share this delicious slice of American history. At the heart 
of the 18 communities along the Trail, we not only embrace this 
historical treasure but have become its champion, sharing this 
remarkable story from sea to shining sea. Our organization is currently 
planning activities that will educate, engage, and inspire current and 
future generations. Evidencing the wide community support for this Bill 
we've brought letters from our City Council, Chamber, Church members, 
Veterans, and the general public. City Council declared 2010 the Year 
of the Veteran, our National Cemetery declared it the Year of the 
Buffalo Soldier. We are confident the passage of H.R. 4491 will aid 
local historic preservation, commerce and tourism in all 18 communities 
along the Trail. It is a rare yet thrilling opportunity to share new, 
old history of local and national significance.
    Our Chamber brought the Buffalo Soldiers to our attention when 
researching the cultural diversity of Los Banos for our centennial 
celebration in 2007. We were not only astonished to learn of the 
Buffalo Soldier connection to our community, but also that the greatest 
resource for Buffalo Soldier history is the National Parks Service! Is 
it irony, or perhaps destiny, that the Buffalo Soldiers were among the 
first stewards of the little known or understood notion of national 
parks and now the National Parks Service is the steward of the fragile 
and little known history of the Buffalo Soldiers?
    H.R. 4491 is necessary because there this is NOTHING official to 
commemorate the contributions of these Veterans. A National Historic 
Trail makes a statement to future generations that this history, this 
contribution is important. Historic trail status would force academia 
to pay attention to this history, meaning universities to grade schools 
would begin to study the story. If American ch8ildren will understand 
at an early age that national parks belong to all Americans.
    In truly honoring the 100th Anniversary of the National Park 
Service, Congress has been challenged with exploring visionary 
strategies to attract and accommodate new visitors through innovation 
and outreach. This Historical Trail Project is undeniably such a 
visionary strategy; it provides 18 opportunities to bring the National 
Parks to the people in their communities as referenced in the NPS 
Centennial Initiative for 2016!
    In 2006 President George Bush called on all Americans to help in 
these efforts and to enhance our parks as we get ready for the National 
Park Service's centennial celebration. Los Banos answered that call and 
the quiet whispers from a hundred years past to honor the little noted 
and mostly forgotten Buffalo Soldiers.
    Neither Congress nor this Subcommittee can change the omissions of 
yesterday; however you can ensure that this history is not just 
preserved, but also presented. It is both your duty and your honor to 
do so by passing H.R. 4491. We're in this for the long haul, working 
together, We Can--We Will stand and salute these remarkable and 
deserving Veterans.
    In her Press Conference announcing the Bill Congresswoman Speier 
said, ``I lived my entire life within walking distance of EI Camino 
Real and never knew this chapter in our local history. Locally, my hope 
is that this remarkable story is incorporated into lesson plans for 
children learning about our region. We all learned in history class 
about the Spanish missionaries, the 49ers and the railroad barons. In 
more recent years, educators have stressed the history of local Native 
American tribes who made their home along what would later be known as 
San Francisco Bay. The story of the Buffalo Soldiers should be added to 
that history.'' We concur.
    On behalf of our community and the Buffalo Soldiers we 
wholeheartedly thank Congresswoman Speier and the 52 cosponsors for 
introducing H.R. 4491--The Buffalo Soldiers in the National Parks Study 
Act, we thank you here today for voting yes.
                                 ______
                                 
    Mr. Grijalva. Let me ask if I may, Ms. Brett, the guests 
that accompanied you today.
    Ms. Brett. Yes. Thank you. This is Captain Dave Aflano of 
our chapter. Excuse me, not our chapter. We are the only 
Buffalo Soldiers Association in the United States to address 
the 1903 reconstruction area uniform. So this is Captain David 
Aflano; and our First Sergeant, Kevin Craig; and our young 
cadet, Kevin Craig, Junior.
    Mr. Grijalva. Thank you very much.
    Ms. Brett. Thank you.
    Mr. Grijalva. Thank you. Let me welcome Mr. Reid Wilson, 
H.R. 4524, Executive Director, Conservation Trust for North 
Carolina, Raleigh, North Carolina. Welcome, and thank you for 
your patience, and I look forward to your comments.

  STATEMENT OF REID WILSON, EXECUTIVE DIRECTOR, CONSERVATION 
       TRUST FOR NORTH CAROLINA, RALEIGH, NORTH CAROLINA

    Mr. Wilson. Thank you, Mr. Chairman, and Members of the 
Subcommittee. My name is Reid Wilson, and I am the Executive 
Director of the Conservation Trust for North Carolina.
    CTNC works to increase the amount of protected natural 
areas in North Carolina, and we do it in two ways. First, we 
promote, and represent, and assist 24 local land trusts so that 
they can protect more land in the communities that they serve.
    And, second, we are a land trust ourselves, and we focus on 
conserving the natural and scenic corridor of the Blue Ridge 
Parkway, and I am presenting my testimony today on behalf of 
seven other land trusts in Virginia and North Carolina who 
protect land along the Parkway.
    We strongly support the Blue Ridge Parkway Protection Act, 
H.R. 4524, introduced by Representatives Shuler, Price, 
Boucher, and Perriello, and there is a Senate version, S. 2951, 
introduced by Senators Burr, Hagen, Webb, and Warner.
    I want to express our sincere thanks for their leadership 
on this issue. These bills would provide much needed funding to 
help ensure that the Parkway is as awe inspiring to future 
generations as it is to us today.
    There are five reasons why it is critically important to 
expand funding for land conservation along the Blue Ridge 
Parkway. First, the Parkway is the most visited unit by far of 
the National Park Service, but its most popular features are 
under threat.
    The Parkway is a national treasure. It is 469 miles of 
spectacular vistas, mature forests, pristine streams, and 
hiking trails that attract nearly 20 million visitors per year. 
Yet, it is an extremely fragile ribbon threatened by 
development.
    In most places the Parkway's land corridor is only 800 feet 
wide, and most of the property that makes up its views is 
privately owned, vulnerable to development.
    In recent years unplanned rapid growth as denuded forests, 
choked streams with silt, destroyed wildlife habitat, and 
ruined scenery. In a survey, over 90 percent of Parkway 
visitors said it was the views that brought them there in the 
first place.
    But the survey also found that if scenic quality declines, 
roughly one-quarter of respondents would reduce their number of 
visits to the Parkway, and many said that they would not return 
at all.
    The second reason is that the Parkway is one of the 
strongest economic engines in the region, providing $2.3 
billion per year to local communities. Furniture and textile 
jobs in the mountains are largely gone, and they are not coming 
back.
    We cannot afford to allow the tourism industry to suffer 
the same fate as manufacturing, and so we must conserve the 
Parkway, the backbone of tourism in this region.
    Third, the Parkway is an incredible natural resource, with 
rich and divorce wildlife habitat. The Parkway contains some 
600 miles of pure mountain streams. It also contains 43 species 
of amphibians, over 1,600 species of plants, and nine Federally 
listed threatened or endangered species. Adding more acres to 
the Parkway would ensure that wildlife habitat is protected and 
not fragmented.
    Fourth, this bill is urgently needed due to the effects of 
the recession. For one thing, there is less State funding in 
Virginia and North Carolina available for conservation 
projects.
    On the flip side, there is more land available for less 
money for conservation due to falling real estate prices and 
distressed properties coming on to the market. While 
development along the Parkway has slowed during the recession, 
its pace was furious before and will no doubt pick up again. So 
there is no time to waste.
    Fifth, the Parkway is celebrating its seventy-fifth 
anniversary in 2010. Passage of the Blue Ridge Parkway 
Protection Act and appropriation of funding would be a fitting 
way to mark the anniversary of this hugely popular, but 
chronically underfunded jewel of the National Park System.
    The bill itself is straightforward. It would authorize $75 
million over five years to purchase both properties and 
conservation easements adjacent to the Parkway. All 
transactions would be done with willing landowners. There would 
be no eminent domain.
    Only properties listed in the Blue Ridge Parkway's land 
protection plan would be eligible to receive funding. The bill 
would facilitate partnerships between the Park Service and 
nonprofit conservation organizations.
    Usually these land trusts can move more quickly than the 
government to protect a property. So the land trust could buy 
the land during the easement, hold it, manage it, until such 
time that the Park Service could supply funding.
    All feasible purchases would be conveyed as soon as 
possible to the National Park Service, and added to the 
Parkway's boundaries. All properties with conservation 
easements would continue in private ownership, but would be 
protected.
    We do understand that the National Park Service has some 
concerns about the bill as drafted. From my conversations with 
the staff of the bills of these sponsors, it is clear that 
there is a strong desire to work with the Park Service to 
resolve these issues and improve the bill.
    CTNC and the other land trusts are likewise eager to work 
toward language also with the Subcommittee that is agreeable to 
all. We all share a sense of responsibility to pass on to 
future generations clean rivers and streams, abundant wildlife 
habitat, ample opportunities to enjoy the outdoors, and a sound 
economy. In short, a high quality of life.
    The Blue Ridge Parkway Protection Act would help achieve 
all of those goals for those who come after us. I respectfully 
urge you to pass this important legislation and to work with 
the Appropriations Committee to secure funding in the next 
budget.
    Admittedly, our Nation faces extraordinary budget 
constraints, but just like 75 years ago when the Parkway was 
created, this relatively small investment will save a treasured 
landscape at bargain prices, and ensure that jobs are created 
and maintained in a region of the country with chronic high 
unemployment. Thank you, and I would be happy to take any 
questions.
    [The prepared statement of Mr. Wilson follows:]

           Statement of D. Reid Wilson, Executive Director, 
          Conservation Trust for North Carolina, on H.R. 4524

    Thank you, Mr. Chairman, and members of the subcommittee. I 
appreciate the opportunity to be here today. My name is Reid Wilson, 
and I am the Executive Director of the Conservation Trust for North 
Carolina, based in Raleigh. CTNC works to increase the amount of 
protected natural lands in our beautiful state. We do this in two ways. 
First, we represent, promote and assist 24 local land trusts, so that 
they can protect more land in the communities they serve. Second, we 
are a land trust ourselves, and we focus on conserving the natural and 
scenic corridor of the Blue Ridge Parkway.
    I present my testimony on behalf of several other local land trusts 
that do excellent work to protect lands along the Parkway--Blue Ridge 
Rural Land Trust, Foothills Conservancy of North Carolina, High Country 
Conservancy, Land Trust for the Little Tennessee, and Southern 
Appalachian Highlands Conservancy, all in North Carolina, and Western 
Virginia Land Trust in Virginia.
    The Conservation Trust for North Carolina has protected over 30,000 
acres along the Blue Ridge Parkway in 39 locations. Properties we've 
conserved include the 17,000-acre watershed that supplies drinking 
water for the city of Asheville, and the 8,000-acre watershed for the 
town of Waynesville. CTNC over the years has protected and conveyed 18 
properties (all but two of them donated) totaling 1,321 acres to the 
National Park Service, and these lands have been added to the 
boundaries of the Parkway. We appreciate the close working relationship 
we have with the excellent staff at the Blue Ridge Parkway.
    We strongly support the Blue Ridge Parkway Protection Act, H.R. 
4524, introduced by Representatives Shuler, Price, Boucher and 
Perriello, and S. 2951, introduced by Senators Burr, Hagan, Webb and 
Warner. These bills would provide much-needed funding to help ensure 
that the Parkway is as awe-inspiring to future generations as it is to 
us today.
    Let me tell you why it is critically important to expand funding 
for land conservation along the Blue Ridge Parkway.
    <bullet>  First, the Blue Ridge Parkway is the most visited unit of 
the National Park Service, but its most popular features are under 
constant threat.
    <bullet>  Second, the Parkway is the economic lifeblood of nearby 
mountain communities.
    <bullet>  Third, the Parkway is an incredible natural resource with 
rich and diverse wildlife habitat.
    <bullet>  Fourth, right now is an outstanding time to buy land 
along the Parkway.
    <bullet>  Fifth, the Parkway will celebrate its 75th anniversary 
this year.
    Let me take each point in turn.
    The Parkway is a national treasure. Its 469 miles of spectacular 
vistas, mature forests, pristine streams and hiking trails attract 
nearly 20 million visitors per year to North Carolina and Virginia. Yet 
the Parkway is an extremely fragile ribbon, and its scenic, cultural, 
and natural integrity are threatened by development. In most places, 
the Parkway's land corridor is only 800 feet wide, and most of the 
property that makes up its views is privately owned, vulnerable to 
development at a moment's notice.
    In recent years, unplanned rampant growth along the Parkway has 
denuded forests, choked streams with silt, destroyed wildlife habitat, 
and ruined scenery with new subdivisions, roads, and shopping centers. 
In a survey, over 80 percent of Parkway visitors said that the main 
reason they visit is to see the vistas. The survey also found that if 
scenic quality declines, 22 percent of North Carolina respondents and 
26 percent of Virginia respondents would reduce their number of visits 
to the Parkway. Many said they would not return at all.
    Clearly, people travel to the Parkway to see the views. The best 
way to protect those vistas is to conserve the lands that comprise 
them.
    Second, the Parkway is one of the strongest economic engines in the 
region, providing $2.3 billion per year to local communities. Visitors 
spend between $149 and $172 per person per day at the Parkway. Clearly, 
protecting the Blue Ridge Parkway is critical to future economic growth 
in neighboring communities. The growing tourism industry depends on a 
healthy Parkway. The furniture and textile industries have been hit 
hard in the mountains. Those jobs are gone, and aren't coming back. We 
can't afford to allow the tourism industry to suffer the same fate as 
manufacturing, so we must conserve the Parkway--the backbone of tourism 
in this region.
    Let me give you a couple of examples that show how fundamental the 
Parkway is to economic growth for dozens of towns up and down its 
length. Whenever a section of the Parkway is temporarily closed for 
repairs or by snow, the Parkway receives numerous anxious phone calls 
from inn and restaurant owners. They want to know how soon the road 
will be reopened because their businesses are taking a hit. Imagine if 
10 percent or 20 percent fewer visitors came to the Parkway each year. 
We know from the Park Service survey that declines of that magnitude 
could take place if the views alone were degraded. This would devastate 
local businesses--outfitters, restaurants, guides, attractions, inns 
and hotels--that depend on tourists.
    Or take the Orchard at Altapass. This historic apple orchard and 
general store sits adjacent to the Parkway about an hour north of 
Asheville. It's a hub of activity in spring, summer and fall. It's a 
place where locals come to clog to live music, visit with their friends 
from neighboring hollows, purchase from among 75 varieties of delicious 
apples, and grab an ice cream cone when it's hot. It's a place where 
tourists flock, especially in the fall, to see stunning views of 
mountain foliage from the store's patio. On one weekend alone last fall 
the orchard had 6,000 visitors. I can guarantee you that those numbers 
would have been cut by half or more, had the views been developed. 
Fortunately, CTNC helped broker a deal with the landowner, CSX 
Railroad, and the state of North Carolina that placed a conservation 
easement on nearly 1,500 acres adjacent to the orchard. Not only will 
the views be protected forever, but so will jobs at the orchard and in 
nearby tourism-dependent towns such as Spruce Pine and Little 
Switzerland.
    Third, the Parkway contains important natural areas that should be 
protected and expanded. The Parkway is home to the headwaters of 15 
watersheds and contains some 600 miles of pristine streams. Protecting 
water at the source means that downstream communities pay less to 
supply clean drinking water to their residents. The Parkway also 
contains 43 species of amphibians, over 1600 species of plants, and 
nine federally listed threatened or endangered species. Juxtaposed with 
those numbers is the number of the Parkway's adjacent landowners--
roughly 4,500. The Parkway has surveyed the 29 counties to determine 
what plans they have for development, and based on that, believes that 
development will become an even more pressing problem in the years to 
come. Adding more acres to the Parkway would ensure that wildlife 
habitat is protected and not fragmented.
    Fourth, this bill is urgently needed due to the effects of the 
recession. For one thing, there is less state funding available for 
conservation projects on the Parkway. And, on the flip side, there is 
more land available to conserve, for less money, due to falling real 
estate prices and distressed properties coming onto the market. For 
instance, CTNC was able to purchase a 534-acre conservation property at 
a discount at the very end of 2008. And, we're currently negotiating 
with a bank to purchase a foreclosed property. We have an outstanding 
opportunity to buy Parkway land, but it won't last indefinitely. While 
development has slowed during the recession, its pace was furious 
before then, and will no doubt pick up again with the economy. There's 
no time to waste.
    Fifth, the Parkway is celebrating its 75th anniversary in 2010, 
culminating in September. Passage of the Blue Ridge Parkway Protection 
Act and appropriation of funding would be a fitting way to mark the 
anniversary of this hugely popular but chronically underfunded jewel of 
the national parks system.
    Seventy-five years ago, the United States faced an economic crisis 
much like the one we're in today. Rather than lock away its money, the 
federal government invested--funding public works programs that not 
only put hundreds of thousands of people to work, but created, 
protected and promoted some of the nation's best-loved places, 
including the Blue Ridge Parkway. The Parkway has been an unqualified 
success. Continued federal investment in the Parkway is a must to 
assure that it will thrive for generations to come.
    Fortunately, North Carolina and Virginia lawmakers have taken the 
lead on legislation to help save the Blue Ridge Parkway's majestic 
views and natural areas. I want to thank Representatives Shuler, Price, 
Boucher and Perriello, and Senators Burr, Hagan, Warner and Webb for 
their leadership in introducing the Blue Ridge Parkway Protection Act. 
This legislation is desperately needed because a lack of funding has 
been a critical barrier to protecting the Parkway's forests, streams 
and vistas.
    The bill is straightforward. Here are the highlights.
    <bullet>  It would authorize $75 million over five years, beginning 
in FY 2010-11, to purchase fee simple properties and conservation 
easements along the Parkway, towards a goal of protecting an additional 
50,000 acres.
    <bullet>  All transactions would be done with willing landowners. 
Nothing would be taken by eminent domain claims.
    <bullet>  The Blue Ridge Parkway's Land Protection Plan, which is 
revised regularly, would guide decisions about which properties are the 
highest priority to be preserved. Only properties listed in the Land 
Protection Plan would be eligible to receive funding.
    <bullet>  Any lands or easements purchased would have to be 
adjacent to the Parkway.
    <bullet>  The bill would enable the Park Service to work in 
partnership with non-profit conservation organizations to conserve 
priority properties. Usually these land trusts can move more quickly 
than the federal government to purchase a property or easement. The 
land trusts could buy the land or easement, hold it, protect it and 
manage it until the Park Service could supply funding to the land 
trust. The bill would ensure that these non-profits are reimbursed by 
the government after purchasing the properties or easements on behalf 
of the Park Service.
    <bullet>  No purchase would be made over appraised value.
    <bullet>  All fee simple purchases would be conveyed to the 
National Park Service and added to the Parkway's boundaries as soon as 
feasible. All properties with conservation easements would continue in 
private ownership, and easements would be held, monitored and enforced 
by a land trust, the National Park Service or an appropriate state 
agency--whichever approach is preferred by the Park Service.
    Passage of this bill and subsequent appropriations would constitute 
a critical investment in the Blue Ridge Parkway's scenic, natural, and 
cultural vitality, and in the future economic well-being and quality of 
life of North Carolina and Virginia. Although the funds provided by the 
Blue Ridge Parkway Protection Act would not be used for traditional 
brick and mortar projects, they would provide a long-term stimulus for 
small businesses throughout the Blue Ridge Mountains to maintain jobs 
that depend on tourism.
    We understand that the National Park Service has some concerns 
about the bill as drafted, specifically about the mechanism for 
providing the funding for specific properties. From my conversations 
with the staff of the bill's lead sponsors, it is clear that there is a 
strong desire to work with the Park Service to resolve these issues and 
improve the overall bill. CTNC and other land trusts that work along 
the Parkway are similarly eager to work toward language that is 
acceptable to all.
    We all share a sense of responsibility to pass on to future 
generations clean rivers and streams, abundant wildlife habitat, ample 
opportunities to enjoy the outdoors, and a sound economy--in short, a 
high quality of life. The Blue Ridge Parkway Protection Act would help 
achieve all of those goals for those who come after us.
    I respectfully urge you to pass this important legislation and to 
work with the Appropriations Committee to secure funding in the FY 
2010-11 budget and beyond. Our nation faces extraordinary budget 
constraints, but--as it did 75 years ago--this relatively small 
investment will save a treasured landscape at bargain prices and ensure 
that jobs are created and maintained in a region of the country with 
chronic high unemployment.
    Thank you, and I'd be happy to answer any questions.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. Let me just quickly ask 
the panel some questions. Ms. Small, would you like to respond 
to the National Park Service's position on H.R. 3425?
    Ms. Small. Chairman, I am not aware of any opposition from 
the National Park Service, and if they have any concerns, we 
certainly would look forward to working with them regarding 
such.
    Mr. Grijalva. OK. Thank you. The San Antonio Missions, and 
you mentioned the river and its completion, the restoration 
completion coming up in 2013, I think you said?
    Ms. Chandoha. 2013, yes.
    Mr. Grijalva. How is your vision for what we are talking 
about today, the missions, and the completion of that, those 
efforts to restore the river, how do you see the connection 
between the two?
    Ms. Chandoha. The connection is extremely important and it 
is also very, very historic. The five San Antonio missions 
which were established beginning in 1718, and in 1720, San 
Jose, Concepcion, Espada, and San Juan, in 1731, were all 
established in San Antonio specifically for the river.
    They were each established along the San Antonio River and 
had life sustaining ties to it, for each mission would go 
upstream, build a diversion dam, and then dig their Acequia or 
irrigation system that would provide water for the vast 
farmlands outside the mission, and for the inhabitants who 
lived inside the mission compound.
    So the river and the missions were symbiotic. They were so 
connected. In the 1960s, flood control work was done in the 
southern portion of the river, which rechanneled the river, 
straightened it up, made it into an ugly trapezoidal type 
cavern almost, and all the ties, the visual ties, and the 
physical ties with the missions were cut off.
    Back in 1975 when the National Park Service did its 
feasibility study, they said that they didn't think it could be 
a national park because of the expense of reassociating, 
reconnecting the missions to the river.
    However, the citizens of Bexar County continued lobbying 
and Congress created the National Park in 1978, but 
unfortunately, like I said earlier, its smaller, and it is a 
little bit disjointed. It is not a continuous park land, and we 
still didn't have that connection to the river.
    San Antonio, Bexar County, continued to work to bring this 
historical connection back, and passed the venue tax, $271 
million, and now that complete section of the river, from 
downtown, all the way down to Mission Espada, is being 
restored. It is an ecorestoration project.
    But an integral part of it is that there will be four 
mission portals that will have visual contact and hiking 
elements between the river and the mission.
    Mr. Grijalva. Thank you.
    Ms. Chandoha. I would also like----
    Mr. Grijalva. I need to ask some other questions.
    Ms. Chandoha. Oh, I am sorry.
    Mr. Grijalva. Otherwise, my time will run out, and I won't 
be able to comment. Well, anyway, in terms of San Antonio and 
my visits there, I want to congratulate you and all the people 
that have worked on restoration efforts, whether that be the 
river, the missions, to preserve that history and blend it with 
a modern city is very, very--it is a great model, and I want to 
congratulate the work that you have done.
    Ms. Chandoha. Thank you.
    Mr. Grijalva. I don't have any other questions for the rest 
of the witnesses, other than to turn it over to Mr. Brown, in 
case he does.
    Mr. Brown. Thank you, Mr. Chairman. The witnesses have been 
very forthcoming with their testimony, and I have no further 
questions.
    Mr. Grijalva. Mr. Kildee.
    Mr. Kildee. Thank you very much for the hearing, and the 
clarity of your testimony was very useful and very helpful, and 
I look forward to working with you and the Minority Leader on 
these bills. We don't know what the result will be, but we will 
work closely together. Thank you.
    Mr. Grijalva. Thank you very much. Let me thank the panel, 
each one of you bringing important testimony, and good pieces 
of legislation, and I will certainly work with my colleagues 
who are the sponsors of this to see where we go from here.
    And thank you for the patience, and particularly the last 
witness, who said I am the last one, and I am going to have to 
wait the longest. Thank you very much. The hearing is 
adjourned.
    [Whereupon, at 12:00 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
